<html>
<title> - NATIONAL SECURITY IMPLICATIONS OF GLOBAL CLIMATE CHANGE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
        NATIONAL SECURITY IMPLICATIONS OF GLOBAL CLIMATE CHANGE 

=======================================================================

                             JOINT HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

                                  and

 SUBCOMMITTEE ON INTELLIGENCE, COMMUNITY MANAGEMENT, PERMANENT SELECT 
                       COMMITTEE ON INTELLIGENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2008

                               __________

                           Serial No. 110-41


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-523 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director
                                 ------                                

               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                    SILVESTRE REYES, Texas, Chairman
LEONARD L. BOSWELL, Iowa             PETER HOEKSTRA, Michigan
ROBERT E. (BUD) CRAMER, Alabama      TERRY EVERETT, Alabama
ANNA G. ESHOO, California            ELTON GALLEGLY, California
RUSH D. HOLT, New Jersey             HEATHER WILSON, New Mexico
C.A. DUTCH RUPPERSBERGER, Maryland   MAC THORNBERRY, Texas
JOHN F. TIERNEY, Massachusetts       JOHN M. McHUGH, New York
MIKE THOMPSON, California            TODD TIAHRT, Kansas
JANICE D. SCHAKOWSKY, Illinois       MIKE ROGERS, Michigan
JAMES R. LANGEVIN, Rhode Island      DARRELL E. ISSA, California
PATRICK J. MURPHY, Pennsylvania
ADAM B. SCHIFF, California
          Nancy Pelosi, California, Speaker, Ex Officio Member
       John A. Boehner, Ohio, Minority Leader, Ex Officio Member
                    Michael Delaney, Staff Director


























                            C O N T E N T S

                              ----------                              
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     4
Hon. Silvestre Reyes, a Representative in Congress from the State 
  of Texas, opening statement....................................     6
Hon. Anna Eshoo, a Representative in Congress from the State of 
  California, opening statement..................................     6
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     8
Hon. Darrell Edward Issa, a Representative in Congress from the 
  State of California, opening statement.........................     9

                               Witnesses

                                Panel I

Thomas Fingar, Deputy Director of National Intelligence for 
  Analysis, Chairman, National Intelligence Council..............    12
    Prepared Statement...........................................    15
Rolf Mowatt-Larssen, Director, Office of Intelligence and 
  Counterintelligence, U.S. Department of Energy.................    12

                                Panel II

Rt. Hon. Margaret Beckett Mp, Former Foreign Secretary, United 
  Kingdom........................................................    58
    Prepared Statement...........................................    60
    Answers to submitted questions...............................   164
Vice Admiral Paul G. Gaffney (Ret.), President, Monmouth 
  University, West Long Branch, New Jersey.......................    68
    Prepared Statement...........................................   106
    Answers to submitted questions...............................   171
Lee Lane, Resident Fellow, American Enterprise Institute.........   114
    Prepared Statement...........................................   116
Marlo Lewis, Senior Fellow, Competitive Enterprise Institute.....   126
    Prepared Statement...........................................   128
Dr. Kent Hughes Butts, Professor, Political Military Strategy, 
  Center for Strategic Leadership, U.S. Army War College.........   153
    Prepared Statement...........................................   155


   JOINT HEARING ON NATIONAL SECURITY IMPLICATIONS OF GLOBAL CLIMATE 
                                 CHANGE

                              ----------                              

                        WEDNESDAY, JUNE 25, 2008

        House of Representatives, Select Committee on 
            Energy Independence and Global Warming, Joint 
            with the Subcommittee on Intelligence, 
            Community Management, Permanent Select 
            Committee on Intelligence,
                                                    Washington, DC.
    The committees met, pursuant to call, at 9:40 a.m., in Room 
210, Cannon House Office Building, Hon. Edward J. Markey 
[chairman of the Select Committee on Energy Independence and 
Global Warming] presiding.
    Present from the Select Committee on Energy Independence 
and Global Warming: Representatives Markey, Blumenauer, Inslee, 
Herseth Sandlin, Cleaver, Hall, McNerney, Sensenbrenner, and 
Walden.
    Present from the Permanent Select Committee on Intelligence 
Subcommittee on Intelligence Community Management: 
Representatives Reyes, Eshoo, Thompson, Murphy, Hoekstra, 
Tiahrt, and Issa.
    Staff present: Ana Unruh Cohen.
    The Chairman. Ladies and gentlemen, thank you all so much 
for being here at a joint hearing of the Select Committee on 
Energy Independence and Global Warming and the Select Committee 
on Intelligence and the Subcommittee on Intelligence Community 
Management.
    I want to thank Chairman Reyes and Chairwoman Eshoo, 
Ranking Member Issa and the rest of the members of the 
Subcommittee on Intelligence Community Management for joining 
us today for this important hearing, and Mr. Sensenbrenner, the 
ranking member of the Select Committee on Global Warming, and 
our members as well.
    We find ourselves at a critical moment in history. The 
impacts of our altered atmosphere from the burning of fossil 
fuels are beginning to manifest themselves in the United States 
and around the world. Our response to this challenge can be to 
either unleash a technology revolution that will enhance our 
national economic and environmental security or to burden the 
planet with climactic catastrophe.
    Whether it is floods in Iowa, cyclones in Burma, or 
drought, starvation and genocide in Darfur, we know that 
environmental threats underpin many global conflicts and 
crises, and that global warming will only make matters worse, 
and that human beings all over the planet face death or famine 
or injury if we do not act.
    The select committee's very first hearing focused on the 
geopolitical implications of our Nation's dependence on oil and 
the impacts of global warming. That inaugural hearing occurred 
in the same week that the U.N. Security Council held its first-
ever discussion on the implications of global warming for 
international peace and security, and the same week that 11 
retired top U.S. military leaders and the Center for Naval 
Analysis issued the report, ``National Security and the Threat 
of Climate Change.''
    We are honored to have two key participants in those 
efforts with us today: the Honorable Margaret Beckett, the 
former Foreign Secretary of the United Kingdom, and Vice 
Admiral Paul Gaffney.
    One of the key recommendations of the CNA report was for 
the Intelligence Community to incorporate the consequences of 
climate change into a National Intelligence Estimate. After 
that first select committee hearing, I introduced legislation 
requiring such an analysis. Through the hard work of Chairwoman 
Eshoo and her colleagues on the House Intelligence Committee, 
similar language was included in the House Intelligence 
Authorization Bill last year.
    The Director of National Intelligence has since responded 
with the National Intelligence Assessment, finalized earlier 
this month, and which informs much of today's hearing. 
Unfortunately, the NIA is classified, and therefore the public 
cannot benefit from the excellent analysis that the 
Intelligence Community has brought together in this report.
    But make no mistake, this first-ever high-level 
Intelligence Community study of global warming, which calls the 
climate crisis ``a threat to American security,'' is a clarion 
call to action from the heart of our Nation's security 
establishment.
    I understand the reasoning behind the decision of the 
National Intelligence Council to classify the specific regional 
security impacts of global warming in this NIA, but I am 
reserving my judgment as to whether that is the right choice.
    The science is conclusive. We know that global warming is 
occurring today, and we know that severe security consequences 
will result. I believe that our goal must be to marshal the 
political will to halt and roll back global warming and save 
the planet from this disaster.
    The Intelligence Community is hesitant to tell the world 
who will be affected, what might happen, and where the greatest 
security risks will occur. But that is exactly what we need. If 
people know specifically what those severe security problems 
will be and where they will be and who they will affect, then 
perhaps we will finally have enough political will, both in 
this country and internationally, to do the hard work of 
solving the climate crisis.
    After 7 years of ignoring the problem, the Bush 
administration continues to limit what their experts can 
communicate to the public on this critical issue. Whether it is 
the Environmental Protection Agency or the National 
Intelligence Council that is sounding the alarm, whether it is 
a danger to the public or a danger to national security, the 
President doesn't want America to know the real risks of global 
warming.
    I would now like to recognize the gentlelady from 
California, Ms. Eshoo, for an opening statement. And then I 
will recognize the two ranking members from the minority.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Eshoo. Thank you, and good morning, Mr. Chairman.
    I think that what I would like to do is to ask the chairman 
of the House Intelligence Committee, because I know he has 
other commitments this morning, to make his statement, and then 
I can follow.
    Mr. Chairman.
    Mr. Reyes. Thank you, Chairwoman Eshoo and Chairman Markey, 
and the ranking members as well, for conducting this very 
important hearing.
    I think this is vitally important, that we provide the 
forum for all these exceptional witnesses to provide us the 
information and the benefit of their expertise, because this is 
an issue that we all realize we have to contend with, whether 
it is in terms of operational considerations, certainly budget 
considerations, but most importantly, as a grandfather, the 
implication that it means for future generations, not just in 
this country but throughout the world.
    So I think this is certainly an important hearing and one 
of a series of opportunities that we will have, as a Congress, 
to factor this issue into everything that we do. So I 
appreciate the opportunity to be here, and we will follow it 
closely.
    Thank you.
    The Chairman. I thank the chairman very much.
    And now we continue to yield to the gentlelady from 
California, Ms. Eshoo.
    Ms. Eshoo. Thank you to Chairman Markey and, certainly, to 
the chairman of the full Committee on Intelligence in the 
House, to all of my colleagues here.
    A special welcome to our witnesses.
    I want to start out by noting the historic nature of this 
hearing today. It is extraordinary because it represents the 
very first time that the Government of the United States is 
acknowledging the national security implications of global 
climate change.
    Many of us have believed for decades that this issue has 
great national security importance. In the 1990s, then-Senator 
Gore highlighted the issue, and he pushed to keep the issue on 
the national agenda as Vice President. The Nation then began 
using intelligence assets and our allies to collect data on 
climate change. I think this is a little-known fact by people 
in our country and people around the world. That, of course, 
came to a halt in 2001. And I think it is really being 
resurrected today, to move forward and to really accept one of 
the great challenges of the 21st century.
    Outside experts began acknowledging the linkage between the 
environment and security, and so this hearing today brings the 
two together with the two committees that have done work on 
this.
    This year, Javier Solana, the E.U. High Representative for 
Common Foreign and Security Policy, issued a paper calling for 
coordinated research on mitigation and on coping strategies for 
global climate change. In 2007, the German Advisory Council on 
Global Change argued for the importance of stopping climate 
change trends. The CNA, advised by 11 former generals and 
admirals, released an in-depth report on likely security 
implications. And the Center for Security and International 
Studies and the Center for a New American Security released a 
joint report on the same.
    Last April, after the release of the CNA study, I wrote to 
the Director of National Intelligence, Mike McConnell, and 
asked him to undertake a National Intelligence Estimate of the 
anticipated geopolitical effects of global climate change and 
the implications of such effects on the national security of 
the United States. He responded that it would be, quote, 
``entirely appropriate'' for the National Intelligence Council 
to prepare such an assessment.
    But when we included a requirement for a National 
Intelligence Estimate in the intelligence authorization bill, 
there actually were those that ridiculed the issue on the floor 
of the House. I think we are coming a long way today. This 
report should put those doubts to rest.
    I want to salute our witnesses that have done so much work 
on this issue and the Director of National Intelligence for 
their work on this assessment. The NIA is the result of just 
open-source collaboration between the Intelligence Community 
and the scientific and academic communities.
    While I am pleased with the report's conclusions, I am 
disappointed--and that disappointment is shared by many of my 
colleagues--that it is classified ``confidential.'' This is the 
lowest level of classified information, a classification level 
rarely used, but one that prevents this report from being 
released and discussed in the public domain.
    I have often noted that the Intelligence Community, at 
least in my view, overrelies on secrecy and classified 
information. In this instance, I believe that the document 
should not be classified, and I hope that the DNI will decide 
to declassify it.
    The Intelligence Community accepted the science as a given 
and without judgment, and still found that there are very 
serious national security implications. Increased global 
temperatures mean heavy precipitation events, reduction in 
glaciers and Arctic ice, and rising sea levels. These climatic 
events will mean crop failures, water shortages, flooding, 
coastal storms, and increased incidents of infectious diseases. 
Each of these leads to instability.
    And our witnesses, I believe, are going to talk about this. 
I am not going to go into the detail of many of them.
    I also want to add that as many as 48 U.S. coastal military 
installations are endangered by flooding and associated damage.
    Now, some would claim that by discussing the implications 
of global climate change we are creating a panic, because, as 
someone said, no one can predict the weather. In the law 
enforcement community, in the emergency response community, we 
train people for the eventuality of things taking place. In 
other words, we prepare. And so I believe that we must address 
the foreseeable consequences. And it is the lack of 
preparedness that should cause any kind of panic.
    I would note that in a speech last month, the NATO 
Secretary General, Jaap de Hoop Scheffer, described the 
greatest security challenges facing the alliance. And he said 
the following, and I will close on this: ``In tomorrow's 
uncertain world, we cannot wait for threats to mature before 
deciding how we counter them. The nature of this new 
environment is already taking shape. It will be an environment 
that will be marked by the effects of climate change, such as 
territorial conflicts, rising food prices, and migration. It 
will be characterized by the scramble for energy resources, by 
the emergence of new powers, and by nonstate actors trying to 
gain access to deadly technologies.''
    Note that the very first threat he mentioned are the 
effects of global climate change. There is no question in his 
mind that the climate change poses a national security 
challenge. And I think that, from this day forward, the words 
``climate change'' and ``international security'' will be 
forever linked.
    So I want to thank everyone for being here, especially the 
wonderful subcommittee that I have the privilege of chairing.
    And I especially want to point out the wonderful and 
important work of our staff: Diane La Voy, Mieke Eoyang, and 
Josh Resnick.
    And, with that, I will yield back the balance of the time 
that, really, I don't have. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    The Chair recognizes the gentleman from Wisconsin, Mr. 
Sensenbrenner, the ranking member of the Select Committee on 
Global Warming.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    This is the third hearing on the national security 
implications of climate change that I have attended since this 
Congress began. It was the topic of the select committee's 
first-ever hearing in April 2007, as well as a hearing in the 
Science Committee last September.
    Reading through the testimony, it doesn't seem like there 
is much new information to assess. Much of the information 
today is based on last year's U.N. Intergovernmental Panel on 
Climate Change reports. The conclusions of the IPCC have been 
studied in great detail by this Congress and warrant further 
consideration in the next Congress. However, I think the 
American people want the Congress today to focus on how to 
reduce gas and energy prices, improve energy security, and to 
increase domestic energy supplies.
    The National Intelligence Estimate appears to give a good 
overview of climate change projections, how they might affect 
certain regions and nations, and how this will affect the 
United States. The NIA constructs these projections out to 
2030, which is a far shorter time frame than many of the 
projections in the IPCC report. Much of the worst-case 
scenarios projected by the IPCC are in the latter half of this 
century.
    The national security implications of climate change will 
cause some concerns. But so do the implications of climate 
change policies that stand to reduce the availability of cheap, 
reliable energy sources around the world.
    Many of the cases detailed in the NIA will have to be dealt 
with through adaptive measures. As one of our witnesses will 
point out today, much of the world is not only poor, but energy 
poor, which makes adaptation much more difficult.
    The testimony of Marlo Lewis, senior fellow at the 
Competitive Enterprise Institute, shows that an estimated 1.6 
billion people have no access to electricity at all. Power 
plants, however fueled, would immeasurably improve these 
people's lives. Where do they fit into the climate change 
picture?
    The testimony of Lee Lane, resident fellow at the American 
Enterprise Institute, summarizes the complexity of this issue. 
Mr. Lane notes that the lens of national security might not be 
the best way to view the issues associated with global warming. 
Climate change policy will require trade-offs that are 
unavoidable, including a weakened U.S. economy, that could 
affect how this country handles conflicts.
    And Mr. Lane notes that if China and India do not 
participate in efforts to cut greenhouse gases, worldwide 
efforts to reduce carbon dioxide concentrations will fail. And 
I agree. And yet efforts to force China and India into 
compliance will only worsen global conflicts.
    Mr. Lane is also right to point out that the only way to 
achieve these greenhouse gas reductions is through the 
development of new technology and that, in the near term, the 
focus should be on further developing technologies like 
nuclear, clean coal, solar, wind and biomass. These 
technologies have the potential to produce clear, tangible 
improvements to the environment, which must be a key part of 
any climate change policy.
    These technologies can also help bolster the energy 
security of the United States, which should be a top priority 
of the Democratic leadership in Congress. There is perhaps no 
action that could better help the energy security of the United 
States than providing access to domestic oil and gas supplies. 
However, instead of taking this crucial action, Congress today 
will again talk about the threat of global warming, as opposed 
to the real threats of high energy prices and energy security.
    I thank the Chair, and I yield back the balance of my time.
    The Chairman. I thank the gentleman.
    And now the Chair recognizes the ranking member of the 
Intelligence Subcommittee, the gentleman from California, Mr. 
Issa.
    Mr. Issa. I want to thank Chairman Markey, Madam Chairwoman 
Eshoo and Ranking Member Sensenbrenner. Additionally, I want to 
thank Dr. Fingar and our second panel of witnesses for 
testifying here today.
    I come here today with a number of questions and 
reservations on the recent National Intelligence Assessment on 
global climate change. Our Nation and its Intelligence 
Community are facing many serious threats. At a time when we 
are short on analysts to assist in finding weapons of mass 
destruction and terrorist activities around the globe, I am 
concerned that projects like this on climate change and the NIA 
amount to a dangerous diversion of intelligence resources.
    I don't say that lightly. I don't make climate change a 
light issue. The question is not, is it appropriate for us to 
be concerned about possible climate change and its impacts? Of 
course not; that is a great concern. Is it appropriate to ask 
hypothetical questions to the State Department, to the CIA and 
others on what will happen if X occurs? All of that is 
reasonable. We continue to do it, and I would expect, on a 
bipartisan basis, we continue to ask those questions so that we 
can plan and so that we know that the community is doing its 
planning.
    What I am concerned about is, clearly, the CIA and other 
intelligence agencies do not and should not have the resources 
of climatologists. I believe that that is probably our greatest 
threat.
    I hope today we will look at this in terms of what it is. 
It is a study of, if in fact there is drought, if in fact there 
is famine, if in fact a number of things occur. It is not a 
study of, will they occur. On that, the science is not settled, 
although the science is unsettling.
    Certainly, for all of us who remember a quote--we earlier 
had quotes--but a quote that goes this way: ``I believe it is 
appropriate to have an overrepresentation of factual 
presentations on how dangerous it is as a predicate for opening 
up the audience to listen to what the solutions are.'' That 
quote, of course, I have to give credit to Vice President Al 
Gore.
    I could go on and give the quotes on Dr. Hansen, who now is 
a leading advocate on climate change and, some would say, an 
alarmist, when, in fact, he was also an author of the ``nuclear 
winter'' we were going to receive as of 1971. He was wrong 
then, and he is wrong now.
    That doesn't mean that we shouldn't be concerned about the 
effects of putting carbon-based fuels into our climate. We 
should be concerned for a number of reasons: First of all, we 
don't know the effects. Second of all, the effects we do know 
include pollution that adversely affects life around the world. 
Lastly, we know that these are limited resources. In America 
today, with $135 oil, mostly due to our lack of willingness to 
produce domestically, we fully understand why our cost is so 
high, and yet we would like to have it lower.
    So I would like to join all of the people on the dais here, 
I believe, in saying that we have to find alternatives that 
help drive down the cost of oil, reduce the use of 
hydrocarbons, and continue the study by serious climate-based 
professors, none of whom, by definition, would normally be in 
the CIA, in order to find out the real question of when will 
these events occur, if they will occur, and how we can stop 
them.
    Lastly, Mr. Chairman, I think the most important thing for 
us to remember here today is not 7 years ago, not 17 years ago, 
not 27 years ago, but in 1971, when we began looking at climate 
and the production of--then it was dust and other particulates, 
but clearly the effects of burning oil, natural gas, coal, we 
sounded an alarm. That was at a time in which an answer was 
open to us, an answer that in my district produces 2,200 
megawatts of power, and that was clean-burning nuclear.
    Today, in California, we are prohibited from doing any 
nuclear--zero emissions. We continue to have an argument 
throughout that entire period while taking away the solution 
that the French and the European Union and others have sought, 
which is, while we don't know the effects of burning carbon-
based in some areas, we do in others. Knowing that, in fact, it 
is not good to burn coal and others, from a particulate 
standpoint, if we could avoid it, knowing that there are over a 
billion people without electricity around the world, not this 
committee but this Congress should dedicate itself to quickly 
freeing up the prohibition on nuclear so that, in fact, we can 
get off carbon-based electricity in this country, dramatically 
reducing our carbon footprint, something we can do today. We 
can do it in a matter of 5 or 6 years. It will do more, by far, 
than other things that we are looking at at the present time, 
or any other thing we are looking at at the present time.
    Mr. Chairman, I would ask unanimous consent to have my 
entire statement put in the record and would like to move on so 
we can get to our panelists.
    I yield back.
    The Chairman. Without objection, so ordered.
    That completes the time for opening statements.
    Now I recognize Chairwoman Eshoo for the purpose of 
introducing our first panel of witnesses.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Now I would like to introduce our very distinguished first 
panel.
    Dr. Thomas Fingar is the deputy director of national 
intelligence for analysis and chairman of the National 
Intelligence Council, or the NIC, which provides the President 
and senior policymakers with intelligence analyses on strategic 
issues. Analytic reports produced by the NIC have been reviewed 
and coordinated throughout the Intelligence Community.
    Dr. Fingar will describe the approach that the Intelligence 
Community has used to produce the National Intelligence 
Assessment, or the NIA, on the security implications of global 
climate change. And he will present a summary of the 
Intelligence Community's key observations on the subject.
    However, the NIA, as we stated previously, the NIA itself 
remains classified at the confidential level.
    Accompanying Dr. Fingar from the NIC are Dr. Matt Burrows, 
the NIC's counselor, who has been key in the drafting of the 
NIA; and Ms. Karen Monaghan, the national intelligence officer 
for economics, who is responsible for the NIA's analysis of 
food and other resources, amongst other issues.
    I am also very happy to welcome Rolf Mowatt-Larssen, the 
director of the Office of Intelligence and Counterintelligence 
in the Department of Energy, which is one of the 16 agencies 
that make up the Intelligence Community.
    So many people think that there is one agency that makes up 
the Intelligence Community, the CIA. There are 15 others. So he 
heads up one of the 16 agencies.
    This office is responsible for the National Laboratories of 
the Department of Energy, which will need to play an 
increasingly important role in assessing and mitigating the 
security impacts of climate change.
    And also of interest is that the office has pursued a 
collaborative approach in working with other countries on 
energy and climate as a global security issue, an approach that 
relies on open-source, unclassified information.
    So, Dr. Fingar, we look forward to your prepared statement 
and to the opportunity to discuss this important topic with you 
and your colleagues. And we also want to thank you for your 
very special leadership.
    The floor is yours.

    STATEMENT OF THOMAS FINGAR, DEPUTY DIRECTOR OF NATIONAL 
  INTELLIGENCE FOR ANALYSIS, CHAIRMAN, NATIONAL INTELLIGENCE 
 COUNCIL; ACCOMPANIED BY ROLF MOWATT-LARSSEN, DIRECTOR, OFFICE 
  OF INTELLIGENCE AND COUNTERINTELLIGENCE, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Fingar. Thank you.
    Chairman Markey, Chairwoman Eshoo, members of the 
committees, thank you for this opportunity to brief your 
committees on the national security implications of global 
climate change to 2030.
    We have submitted a statement for the record that provides 
considerable detail on the study and its conclusions. As you 
requested, I will provide only a brief summary, but I ask that 
the full statement be included in the record.
    The Chairman. Without objection, it will be included.
    Mr. Fingar. The just-completed National Intelligence 
Assessment that undergirds our statement for the record was a 
new and challenging venture for the Intelligence Community.
    Our ultimate objective was to assess the national security 
implications for the United States of global climate change. In 
order to do so, we had to reach outside the Intelligence 
Community for expertise on climate science, on how projected 
changes would affect specific countries. We did not address 
mitigation, nor make any judgments about costs or future 
technologies.
    The approach we adopted had four stages.
    Stage one was to establish a starting point. Since the 
Intelligence Community does not conduct climate research, we 
turned to other U.S. Government organizations with the 
requisite expertise, including the U.S. Climate Change Science 
Program and climate modelers and experts for the Department of 
Energy National Laboratories and the National Oceanic and 
Atmospheric Association.
    Our primary source for climate projections was the 
Intergovernmental Panel on Climate Change fourth assessment 
report. We relied primarily on the report's mid-range 
projections.
    Stage two was to assess how global climate change 
projections would impact specific countries. For this stage, we 
commissioned parallel studies by the Joint Climate Change 
Research Institute, a collaborative research program of the 
University of Maryland and the Pacific Northwest National 
Laboratory, and Columbia University Center for International 
Earth Science Information Network.
    Both teams examined how projected climate change would 
affect water scarcity, populations at risk from sea-level rise, 
and overall vulnerability to climate change in approximately 60 
countries. The countries examined did not include highly 
developed countries with the economic, technical and political 
capacity to cope with the effects of climate change between now 
and 2030.
    The results of stage two were reviewed by country and 
regional specialists convened by the National Intelligence 
Council and the Naval Postgraduate School. The goal was to 
assess the ability of each of the countries and regions to cope 
with the projected impacts.
    The results of the stage three assessment provided the 
basis for the Intelligence Community's examination of how the 
results of projected climate change would affect U.S. national 
security interests to 2030.
    The fourth stage of the study assumed that climate change 
will occur as forecast by the IPCC report, and that it will 
affect specific countries as projected in stages two and three.
    We chose 2030 as the end point because it is far enough in 
the future to see physical and biological effects of climate 
change but close enough to allow judgments about the likely 
impact of such changes.
    I will now summarize briefly the key conclusions of our 
assessment.
    Our analysis found three primary paths through which the 
effects of climate change could impact national security: water 
scarcity, decreased agricultural productivity, and 
infrastructure damage.
    Water scarcity and decreased agricultural productivity can 
trigger human migration. Regardless of whether the migration is 
inter- or intrastate, it could cause or exacerbate tensions 
between the migrants and the receiving population.
    Damage to infrastructure resulting from increases in the 
frequency or intensity of severe weather events could have 
significant economic costs and add to social and political 
tensions. Social tensions and economic costs could lead to 
state or regional instability, threatening U.S. interests.
    We judged that global climate change will have wide-ranging 
implications for U.S. national security interests over the next 
20 years, because it will aggravate existing problems, such as 
poverty, social tensions, environmental degradation, 
ineffectual leadership, and weak political institutions. All of 
these threaten domestic stability in a number of African, 
Asian, Central American and Central Asian countries.
    We assess that climate change alone is unlikely to trigger 
state failure in any state during the period to 2030, but it 
could contribute to inter- and, more likely, intrastate 
conflicts, particularly over access to increasingly scarce 
water resources.
    We also judge that climate change effects could prompt 
migration in search of better living conditions, both within 
nations and from disadvantaged to more affluent countries.
    Climate-induced or -exacerbated tensions will be a major 
contributor to instability in several areas of Africa, where 
many countries are already challenged by persistent poverty, 
frequent natural disasters, weak governance, and high 
dependence on rainfall for agricultural yields.
    In Asia, current research indicates that extensive parts of 
South, Southeast, and East Asia will face risks of decreased 
agricultural productivity, floods and droughts. By 2025, cereal 
crop yields would decrease by 2.5 to 10 percent, according to 
some calculations. Projections indicate that as many as 50 
million additional people could be at risk of hunger by 2020.
    Most developed nations and countries with rapidly growing 
economies are likely to fare better than those in the poorer 
developing world, largely because of greater coping capacity. 
Nevertheless, many regional states important to the United 
States could experience negative consequences. Rapidly 
developing states could experience economic setbacks and uneven 
growth, leading to political instability. Most U.S. allies will 
experience negative consequences, but also have the means to 
cope with the projected effects of climate change out to 2030.
    Some countries will benefit from climate change effects, 
including those in the Northern Hemisphere, where temperature 
increases will lengthen growing seasons and facilitate access 
to energy and other resources. Most of North America in the 
mid-latitudes will be less affected by climate change in the 
next few decades than either the tropics or the polar regions. 
Most studies suggest the United States as a whole will enjoy 
modest economic benefits from increased crop yields, but the 
Southwest will have serious water problems, and the East Coast 
could be subject to more severe weather.
    Current infrastructure design criteria and construction 
codes may be inadequate for climate change, increasing 
vulnerability to heightened storm intensity and flooding. A 
number of coastal military installations in the Continental 
United States are at significant risk of damage from storm 
surge-induced flooding. Two dozen nuclear facilities and 
numerous refineries along U.S. coastlines are at risk.
    Mr. Chairman, this brief outline presents a summary at the 
50,000-foot level, but I hope it has given you a clear 
understanding of how we conducted the study and the nature of 
the implications for the United States.
    My colleagues and I will now be very happy to provide 
additional details in response to your questions.
    [The statement of Mr. Fingar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you so much, Dr. Fingar.
    And I want to congratulate you, first of all, on the 
National Intelligence Assessment. It is a first-class product. 
Our Nation is indebted to you and your team. You have done a 
very good job here in laying out this problem for our country 
and for the planet. And I think it has already had a major 
impact on the debate about how this country must act 
aggressively to combat the threat of global warming.
    In your testimony, you conclude that global warming will 
multiply existing problems internationally, including social 
tension, environmental degradation, ineffectual leadership, 
weak political institutions, poverty, scarcity of resources, 
and large-scale migration. That, to me, sounds like a laundry 
list of the underlying causes of terrorism.
    Could global warming worsen the very problems that are 
underlying and driving the terrorism problem today?
    Mr. Fingar. First of all, thank you for the positive 
comments on the National Intelligence Assessment. I will 
certainly pass them to the people that did most of the heavy 
lifting on this project.
    The summary of conditions that you provided and that is in 
our statement is very similar to the list of conditions and 
preconditions for alienation that appear to be at work in some 
cases of recruitment into terrorist activity. So I think logic 
suggests that the conditions exacerbated by the effects of 
climate change would increase the pool of potential recruits 
into terrorist activity.
    The Chairman. And from your perspective, is this additional 
contribution to terrorism something that the United States 
should be concerned about and take action to prevent?
    Mr. Fingar. We should certainly be concerned about any 
factors, any instance, any areas in which recruitment of people 
to terrorist activities is occurring. So my short answer would 
be yes.
    The Chairman. As you look at Somalia and Darfur, do you 
believe that those were areas where this did actually 
contribute to the rise in tension amongst different groups and, 
as a result, increase the national security concerns of the 
United States?
    Mr. Fingar. If you are drawing the linkage from drought 
here as a climate-change-exacerbated factor, drought is 
certainly one of the factors in the unstable situation in 
Sudan, in Darfur, but only one of those. The clashes that are 
partly religious, partly ethnic, partly economic, partly the 
strivings of people for the ability to live in a very difficult 
situation--all are a factor in creating a terrible humanitarian 
situation.
    To my knowledge, we have not had instances of large-scale 
recruitment or attempts to recruit for terrorist activity out 
of this particular population.
    The Chairman. You mentioned that the Intelligence Community 
has done very little work on assessing the implications of 
climate mitigation strategies, whether they are carbon capture 
and sequestration, biofuels or nuclear.
    I really don't understand the conclusion drawn on page 7 of 
your testimony that, quote, ``Efforts to develop mitigation and 
adaptation strategies to deal with climate change may affect 
U.S. national security interests even more than the physical 
impacts of climate change itself.''
    If we haven't analyzed mitigation strategies yet, where 
does the conclusion that doing the work to avoid global warming 
would be even worse than global warming itself? Is that 
sentence from page 7 in the classified National Intelligence 
Assessment, or was this added to your testimony at some later 
point?
    Mr. Fingar. No, it is a part of the reason that we have 
planned follow-on studies to look at mitigation effects.
    The operative word is ``may.'' We don't know. We don't know 
what effects efforts to expand nuclear power will have on 
proliferation possibilities. We don't know what effect 
mitigation efforts in one country may have on conditions in a 
second or a third country; that, for example, mitigation 
effects in India that could affect, perhaps adversely, 
conditions in Pakistan.
    So that is the reason the sentence is there. We think it is 
important to take proposed remediation activities and look at 
them so that we can provide judgments that we cannot make at 
this time.
    The Chairman. But if we read that conclusion on page 7, you 
get a totally flawed and false view of what the NIA, which is a 
hugely important document, actually concluded.
    I have seen the classified document. And this idea that our 
attempts to avoid global warming could be more damaging to U.S. 
national security than global warming itself is simply not 
there.
    We have seen this administration politicize intelligence 
before, and it looks like they have done it here again--not 
you, sir, of course--by inserting in your testimony this 
statement that is simply not supported by the intelligence and 
which is, in fact, completely misleading. Clearly, we need to 
have the NIA declassified in full so that it can be read and 
debated without being filtered through the White House.
    If this White House wants to debate how we should address 
and mitigate the climate crisis, we welcome that debate. 
Because it is the White House, not the Congress, that wants to 
send nuclear power reactors to Saudi Arabia, in the most 
unstable region in the world, in the name of global warming. 
There will, I guarantee you, be a severe security implication 
for this country in the form of uncontrolled nuclear 
proliferation from that absurd policy.
    So I think it is important for us to have it out on the 
table, if sending nuclear power plants to Saudi Arabia is the 
administration's argument that they are making in a climate 
change context.
    Again, I thank all of you at the table.
    Mr. Fingar. If I may respond briefly, Mr. Chairman, for the 
record, to note that the White House had no involvement in the 
production of either the National Intelligence Assessment or 
the statement for the record, other than the statement for the 
record with the normal OMB review process. This is the judgment 
of the Intelligence Community.
    The Chairman. Did OMB ask for any changes in the language 
of your testimony?
    Mr. Fingar. Not in that portion of it.
    The Chairman. Let me turn then and recognize the ranking 
member of the select committee, the gentleman from Wisconsin.
    Mr. Sensenbrenner. I thank you very much, Mr. Chairman.
    Dr. Fingar, am I correct in assuming that the National 
Intelligence Estimate was based exclusively on the report of 
the Intergovernmental Panel on Climate Change?
    Mr. Fingar. No, sir, you are not correct in that.
    Mr. Sensenbrenner. Okay.
    Mr. Fingar. We took, as a starting point, the IPCC fourth 
report. We added to that peer-reviewed scientific materials 
produced in the years since that report was produced. We 
consulted with a variety of U.S. Government and academic 
specialists on it. But we did not attempt to evaluate the 
climate science, that that review and supplementing of it said 
that reflected a reasonable scientific projection.
    The IPCC report is at a global level, which doesn't provide 
very much useful information on how individual nations, 
subcomponents of nations, sectors of the economy, agricultural 
crops and so forth. For that kind of detail, we turned to the 
two commissioned studies.
    Mr. Sensenbrenner. Several weeks ago, there was an article 
that appeared in Nature magazine that said, for approximately 
the next decade, we will be experiencing a period of global 
cooling.
    Was any of the information in the Nature article put into 
the National Intelligence Assessment, or did that article come 
out too late for it to be of use to you?
    Mr. Burrows. I don't believe we used it, other than the 
experts we have consulted may have seen it and factored it into 
their analysis. But we did not use it.
    Mr. Sensenbrenner. Well, given the fact that the 
computerized projections that the IPCC used would come up with 
a significantly different result if even there was a tenth-of-
a-degree cooling or a tenth-of-a-degree warming, and greater 
than that if the variations were different either up or down, 
how would the National Intelligence Assessment change if the 
IPCC projections ended up being proven wrong because of changes 
in actual, observed temperatures either upwards or downwards?
    Mr. Fingar. We can't answer that question, sir----
    Mr. Sensenbrenner. Okay.
    Mr. Fingar [continuing]. Because we took, as the starting 
point, projected change. If change occurs in ways that are 
different, then our assessments based on the projection of the 
individual countries and then a projection of the coping 
capacity of those countries and then on national security would 
have to change.
    But, again, the starting point for this was the climate 
science report of the IPCC. They have been peer-reviewed, 
including in parts of the U.S. Government. If that is wrong, 
then what follows is wrong.
    Mr. Sensenbrenner. Okay. Well, I think that makes the point 
that many of us on this side of the aisle are making, is that 
even a small error on the part of the IPCC projections, 
compared to what is actually observed now and in the future, is 
going to make all of this debate really irrelevant, in terms of 
how we deal with the issue.
    I think we are going to be hearing pretty soon that many of 
the people who have been involved in this effort for quite a 
while were predicting a nuclear winter and global cooling as 
late as 25 to 30 years ago. And, in terms of making decisions 
that would have a major impact on our economy, one that would 
weaken our economy at a time when it is not too strong, it 
seems to me that we ought to stop and think through things. 
Because if we make decisions now and it is based on imprecise 
data or projections that are wrong, there will be a lot of 
people hurt very unnecessarily.
    I yield back the balance of my time.
    The Chairman. I thank the gentleman.
    And the Chair recognizes the gentlelady, the Chair of the 
Intelligence Subcommittee.
    Ms. Eshoo. Thank you, Mr. Chairman.
    First, Dr. Fingar, thank you for your testimony and the 
written testimony that all of the members have in their binders 
and have read.
    I think that the early questions so far really are 
indicative and point out, you know, the two different pictures 
that are painted of the whole issue of climate change, that 
there were scientists that did great work decades ago and, 
based on what they knew then, made projections. Now it is being 
said that, ``Gee, they made projections and they got into 
something and they weren't exactly right, so this is not a sure 
science, and so let's set this aside and let's do something 
else.'' I don't belong to that school of thought.
    And I say this with sincerity, because I really respect the 
ranking member of the select committee, Mr. Sensenbrenner. He 
was part of the congressional delegation that the Speaker led 
on climate change to India and, you know, was a real asset to 
that effort.
    I think it is important to lay down once again that the 
Intelligence Community are not the researchers of the science. 
They have accepted the science that has been put forward by a 
variety of agencies and experts, and have moved out to make 
their comments as a result of their study and the NIC, 
producing the NIA on the whole issue of how this impacts not 
only our national security but how it brings about 
international insecurities.
    So, now, my question to you is quite a broad one, and that 
is: What, in your view, comes next? Should there be a team that 
is put together in our Intelligence Community?
    It seems to me that we cannot and have not been able to do 
effective work, our own Intelligence Community, without working 
with other intelligence communities around the world. We 
strengthen our own ranks and our own efforts and certainly 
bring a great deal to theirs and the international bodies that 
I lifted some quotes from their leaders from in my opening 
statement.
    So can you give us your view of what you believe are the 
next steps that need to be taken? And what mechanisms? What 
mechanisms do you think exist today, or do we need to design 
new ones? So that is my question.
    Thank you, again, for your superb work.
    Mr. Fingar. Thank you. Thank you for your confidence in 
asking such an ambitious question.
    Additional work clearly is required on climate science. In 
my judgment, that work is best done in other agencies of the 
United States government other than the Intelligence Community 
where the expertise and the access, the contacts with 
international scientists, counterparts, research institutions 
around the globe, since this is a global problem, involving 
existing international mechanisms to continue to work the 
climate science issues. That climate change issue on which 
intelligence, covertly, clandestinely acquired information, is 
not very helpful.
    We can't steal Mother Nature's intentions. I am being a 
little facetious, but the fact of the matter is we don't have a 
body of classified information that would be significant in 
size and certainly not different in kind to that which is 
available in other places.
    Where we plan to focus next within the Intelligence 
Community, based on what we have learned out of the study just 
completed, is to drill deeper into the effects on individual 
countries. One of the things that we discovered in doing this 
study is that for much of the world data doesn't exist with a 
granularity that is really needed to make confident 
assessments. So an effort needs to be made to acquire that 
data. We are going to drill down in selected countries.
    A second focus will be a look at the great power 
implications of the climate change's effects forecast here. 
Russia----
    Ms. Eshoo. Great powers.
    Mr. Fingar. Russia perhaps benefiting, the United States 
benefiting but having some deleterious impacts. China and India 
are in the countries that will now experience, over the 
timeframe----
    Ms. Eshoo. In other words, there are winners and losers, a 
combination.
    Mr. Fingar. There are winners and losers in this; and some 
of them are very big, important global players. What are the 
implications for cooperation, for competition for resources and 
the like? That is a subject for future study.
    Ms. Eshoo. Thank you.
    The Chairman. The gentlelady's time has expired.
    Mr. Fingar. The third area would look at some of the 
mitigation strategies that have been proposed. We didn't do it 
the first time, but we have been asking how would that change 
things.
    The Chairman. I thank the gentlelady.
    The Chair recognizes the gentleman from California, Mr. 
Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Let me ask a question, in a little bit of the abstract but 
not too much.
    If I was to say that there were ominous signs that the 
earth's weather patterns have begun to change dramatically and 
that these changes portend a drastic decline in food production 
for serious political implications for just about every nation 
on earth, the drop in food output could begin quite soon and, 
perhaps, in only 10 years from now, the regions of decline that 
would feel the greatest impact would be the wheat production of 
Canada and Russia, but, additionally, areas on the margin and 
only marginally self-sufficient, tropical areas in Indonesia, 
Pakistan, Bangladesh, and Africa, where growing seasons depend 
on rains brought by the monsoon, would you say that that was at 
least, in part, essentially what we painted for you with this 
global climate change as a potential that you had to deal with 
in your analysis?
    Dr. Fingar, I mean, I know that is not the exact words of 
any of the studies, but isn't that essentially what we painted 
for you, is that global climate change to begin in as little as 
10 years, going out to 2030, would have these kinds of effects 
in many of the areas I named?
    Mr. Fingar. I guess three comments.
    One is, we took, as a starting point, a set of projections. 
We took the mid-range projections, which----
    Mr. Issa. I appreciate that on the study, Doctor.
    Mr. Fingar [continuing]. Which are not as extreme as was 
done there, but that our starting point was a set of 
projections and scenarios about how climate change would affect 
the physical and the biological world.
    Mr. Issa. I appreciate that. But, as you said, you are not 
a climatologist. You don't have them on staff. You had to reach 
out to get even what the projections were.
    What I read you was, as far as I can tell, similar to what 
you are dealing with as the hypothetical: Change beginning in 
as little as 10 years, droughts, marginal areas not being able 
to meet food demands. True or false?
    Mr. Fingar. Well, what I am having difficulty with is the 
word ``hypothetical.''
    Mr. Issa. Well, let me be less hypothetical.
    You were--between your graduate and undergraduate years in 
1975, I think you were a Ph.D. candidate when that was written. 
That was based on global cooling.
    The projections for global cooling, Newsweek, Science, full 
page, 1975, were that those things would occur, that marginal 
areas, areas having less technology, less able to cope with, 
such as Indochina then, the Soviet Union, Canada, based on 
their wheat, because wheat harvests don't do very well as it 
warmed in that case, and certainly the areas along the Equator, 
if they stop getting the rain that came with monsoons, that 
that would adversely affect and lead to instability. Now, your 
study today, based on the opposite, or the studies you accepted 
based on the opposite, have the same effect.
    My point here today is the problems of 1975, based on 
global cooling, and the problems here, based on global warming, 
appear to be the same problems. Wouldn't you agree that, in 
fact, if you have a change of 7 or 8 degrees and a change in 
how much water falls where, marginal areas up or down, we are 
going to be affected and affected fairly dramatically? Isn't 
that true?
    Mr. Fingar. I can't argue that it isn't true.
    Mr. Issa. Okay, then, following up, because I have very 
limited time and I want to get to just one single point in 
this, I appreciate what the Intelligence Community brings to 
us.
    For purposes--this is a committee on global climate change 
mixed with a Committee on Intelligence. For purposes of 
intelligence, no matter what we give you in hypotheticals, a 
rise of 7 degrees, a fall of 7 degrees, inability to grow crops 
in India because they burn cow dung and the sky doesn't allow 
enough sun to get in, whatever the hypothetical we give you, 
isn't it true that you are prepared and that one thing that we 
can count on is that you will give us some analysis of what 
will happen if, but, in fact, you cannot really feed accurately 
within your resources of any of the intelligence agencies the 
input of whether the temperature is going to go up or down, 
whether the temperature is going to cause or not cause a 
drought?
    What you can do is deal with any hypothetical we give you 
as to global climate change and come back to us and say, yes, 
if you cut off the water in X country or if this country has a 
crop failure, we can give you an analysis of the impact to 
America's security and the stability of those countries. Isn't 
that essentially what we are--the relationship that we should 
have with your agency?
    Mr. Fingar. Yes, that is correct.
    Mr. Issa. Okay.
    Mr. Fingar. If the question is posed as what would be the 
implications of--make up the hypothetical or pick the 
scientific study. What would change would be sort of the 
confidence level, about whether it was purely hypothetical or 
was grounded in real-world experience and the quality, as 
judged by those able to do so, of the underlying science.
    Mr. Issa. Doctor, I hated to make it as painful as it was. 
It is very important. I appreciate the Chair's indulgence. It 
is very important. I appreciate that you and the agency, that 
all of the agencies of the Intelligence Community are very good 
at giving us these hypotheticals and not qualified per se to 
look into climate change, but, rather, given a set of scenarios 
that might occur, giving us a reasonable projection and, as you 
said, I think very importantly, Mr. Chairman, that we delve 
into a deeper--that the very mitigations we have to analyze 
whether those mitigations have side effects.
    I appreciate the Chairman's indulgence and yield back the 
time I also don't have.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Holt.
    Mr. Holt. Thank you, Mr. Chair, Madam Chairman. I 
appreciate your putting this hearing together.
    Just to follow the line of questioning from this morning 
for just a moment longer, let me ask, Dr. Fingar, why you chose 
the IPCC judgments. And I gather this was not just a randomly 
selected essay that somebody tossed off the top of their head 
and that you, as I recall from reading the assessment, you 
actually subjected it to some analysis about how conservative 
it was or how far out it was.
    Mr. Fingar. I would like Matt to answer that.
    Mr. Burrows. We selected the IPCC fourth assessment as well 
as other--we selected the IPCC's fourth assessment report as 
well as other peer-reviewed scientific material, because, 
first, it was--IPCC report was peer-reviewed and accepted by 
the U.S. government. So it was, in our minds, the consensus 
document by which to use as a base, then, for analyzing the 
security implications of climate change.
    Mr. Holt. Thank you.
    The other question I would like to pursue--and I am sure 
there won't be time to exhaust it--but it is something that, 
Dr. Fingar, you and I have discussed before. It is the 
implications for the way we do and collect intelligence, 
collect and analyze intelligence in the United States.
    For 50 years, partly because of the Cold War mentality, and 
for various other reasons, our intelligence, both the budget, 
the directives and the way the analysts think, has been 
oriented toward politico/military issues. It has all been, you 
know, in shorthand. We might say we have been practicing 
criminology, trying to get inside the political dynamics in the 
world.
    You said you had to use a different methodology in putting 
this together. I wonder if we shouldn't be using that different 
methodology more often in more other areas. Because by focusing 
on the politico/military dynamics, we can sometimes miss things 
that are perhaps of even greater import.
    Mr. Fingar. I absolutely agree with you on two dimensions, 
maybe more than two, specifically. One is thinking about our 
national interest or national security in ways that are broader 
than they were in the past. And certainly the range of 
questions that are posed to the Intelligence Community now come 
from a much wider spectrum of U.S. government agencies, and the 
old way of doing things is inadequate to new problems.
    The other is the reaching out for information that is not 
inherently sensitive or classified because we stole it, because 
we used very sophisticated methods to achieve it. Engaging with 
experts inside and outside of the United States government, 
inside and outside of the United States has become--is 
increasingly important and now soon to be mandated by DNI 
McConnell as a part of what is expected of all analysts in the 
community.
    Mr. Holt. So I gather part of this different methodology 
that you recommend means a better use, more integrated use of 
open-source information.
    Mr. Fingar. Absolutely, absolutely.
    Mr. Holt. You are alluding to the fact that in the 
Intelligence Community there is this belief--a fallacious 
belief, I might say--that hard-won information, in other words, 
information gained surreptitiously or through expensive 
national technical means, is somehow better information than 
you might get. It is certainly harder, one, but it is not 
necessarily better than what you can get from open sources.
    Our time is expiring. I thank you for your observation.
    The Chairman. Did you want to add something, Dr. Fingar?
    Mr. Fingar. No, but if I may beg the Chair's indulgence, I 
am watching the clock because I have an airplane to catch. So 
if it becomes necessary for me to turn it over to my 
colleagues, please indulge me. I thought we were going to end 
at 11:00. I had scheduled around that.
    The Chairman. Let me now turn and recognize the gentleman 
from Oregon, Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    Dr. Fingar, what level of confidence do you have in your 
assessment? What level of confidence do you apply to this 
assessment?
    Mr. Fingar. The confidence level we have applied is of low 
to moderate, the reason being the cascade of uncertainties. 
There was uncertainty about the climate change projections that 
we took as the base lines. There was uncertainty about the 
impact on the individual countries. There were uncertainties 
about the judgments of the experts we consulted about the 
ability of different countries and regions to cope with them. 
So that that cascade of uncertainties gives us a bottom line of 
low to moderate.
    Mr. Walden. Of low to moderate on your assessment. So as we 
read this, the public version of this document, we should 
assume that your confidence level behind it is low to moderate?
    Mr. Fingar. Correct.
    Mr. Walden. Why publish something at that level?
    I understand the answer. I was hoping to get it from him.
    Dr. Fingar, why publish at that level? Will you stand 
behind this report?
    Mr. Fingar. We will stand behind it. We will stand behind 
the methodology we used, and one of the reasons I used as much 
of the time for my presentation to lay out that methodology so 
people would understand what we did to reach the conclusions.
    Again, just to close the loop, if you meant publish in the 
sense of public, we were asked to present an unclassified 
statement for the record. The National Intelligence Assessment 
is classified.
    Mr. Walden. All right, let me switch gears. Because when I 
think of national security and global climate change and all of 
these issues, I also see the issue of food security and energy 
security, being able to grow crops. I represent a very arid 
part of Oregon, 70,000 square miles where, you know, the line, 
whiskey is for drinking and water is for fighting. It has gone 
on for 100 years.
    I sense in global climate change as part of what is in the 
public report is you are going to have different moisture 
regimes which will affect crops, which will affect food stocks, 
correct?
    What you have done is take the published data, scientific 
data, analyzed that and tried to apply it on a country-by-
country basis to determine what we could anticipate happening 
in those countries with the known science of global climate 
change. And to all of that you apply the low-to-moderate 
confidence level in your findings; correct?
    Mr. Fingar. To the assessment we make of the national 
security implications for the United States is the bottom of 
that cascade.
    Mr. Walden. Okay. So then when we are talking about the 
national security interests of the United States, as I watch 
the food price crisis around the world, as I watch the energy 
crisis here in this country and around the world, as I talk to 
my constituents, the farmers and ranchers, who provide a lot of 
the food that is, frankly, exported in terms of wheat and other 
grains around the world, it seems to me that our energy lack of 
independence in the United States, the price of oil, fertilizer 
and other inputs, is having a very significant impact on 
stability around the world.
    Then you look at the money we are sending to, oh, Hugo 
Chavez at $130 million a day for oil out of Venezuela, the 
money going into China and Russia, is that also not a security 
issue that may be even larger than what we are facing with 
global climate change?
    It seems to me that the Chinese and the Russians are 
becoming more financially independent at our price because we 
are sending the money for oil and all to them. Aren't they 
building up their militaries? Doesn't that provide a bigger 
issue we should be focused on?
    Mr. Fingar. It is a different issue----
    Mr. Walden. I know that.
    Mr. Fingar [continuing]. That I am unable to size in a 
comparative way.
    Mr. Walden. So you think global climate change issues are 
equal then, is that what you are saying, to what we are seeing 
unfold today on the energy picture?
    Mr. Fingar. I will invite----
    Mr. Walden. Yes, maybe somebody else.
    Mr. Mowatt-Larssen. Well, I would agree with your principal 
contention that it is very useful to look at the climate issue 
in the context of energy, obviously. In fact, I go so far to 
say they are more or less a single equation of state. As you 
change energy policy, you will have positive or negative 
environmental consequences, including on global warming. In 
fact, I would use a quote that maybe captures one element of 
that from the World Economic Forum, Global Futures Report from 
this year.
    They stated, ``The failure to develop a holistic policy 
approach to management of both energy security and reducing 
carbon emissions may end up threatening both objectives.''
    I think, of course, that will also affect, as we look into 
the future on this issue, the kinds of confidence we have in 
our analysis will depend largely on the variability of the 
studies.
    The Chairman. I hate to interrupt, only because Mr. Fingar 
has to leave, and I would like some of the other members--the 
gentleman's time has expired. I apologize to you.
    The Chair recognizes the gentleman from California, Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I thank you for being here to provide testimony, and I just 
want to add my thanks to all the people behind putting together 
this work. The estimates are a fabulous help to us, and now I 
appreciate all the work that goes into it.
    I just want to point out that all of your estimates are 
based, more often than not, on judgments. Your judgments are 
based on uncertainties, and that is kind of the nature of the 
business that you are in.
    Also, I think it needs to be pointed out that when you 
label something a certain confidence level, that is an 
accumulation of everything, that there is parts of your work 
that have higher confidence ratings than others, as I 
understand it, from my position on the Intelligence Committee. 
So I think that needs to be pointed out in the beginning.
    But I, too, had concerns about the IPCC's findings and 
wanted to know whether or not these are things that we could 
take to the proverbial bank.
    I met with a group of scientists from one of the 
universities in my district, the University of California at 
Davis, an agricultural institution, and all the scientists I 
met with, they just kind of shrugged. They said, well, of 
course this is good stuff. You just have to remember, it is a 
consensus report. So this is kind of like the lowest common 
denominator. They were already at the point where this was 
accepted.
    I also want to point out that the private sector is 
certainly, in my district, is interested in this type of work. 
I represent an area, the main crop--agricultural district--the 
main crop is a wine grape, fruit for wine productions; and 
every vineyard in my district on their own is out trying to 
figure out how to reduce their carbon footprint.
    They know it is good for business. They know it is good for 
their survival. And they look at things like the increase in 
temperature; and, already, the warming in California, the 
increased temperatures in California are already responsible 
for the introduction, they claim, of two new pests per month.
    This has an impact on the business, and the private sector 
is going out there. They are installing solar panels. They are 
burning different types of fuel, different types of farming 
practice. They are investing a lot of money out of pocket 
because they know that this is important.
    A lot of it is based on data that has been made available; 
and it seems to me that we should be looking at how to make all 
of the data available so everybody, governments--not only local 
governments and State governments here but governments around 
the world--we can work in conjunction with them to deal with 
what would be devastating geopolitical problems if this comes 
about.
    I guess I would like to hear from you, Dr. Fingar, 
regarding the making public, declassifying this information, so 
we can have the benefit of working across agencies, working 
across governments, working globally to deal with this.
    Mr. Fingar. Let me respond to three points that you made.
    One is the Intelligence Community is used to working with 
uncertainty, working with partial information. That is what we 
do all the time. That is why we exist. If we have all of the 
information, you wouldn't need to hire us. So we are used to 
trying to piece together a 1,000-piece puzzle when you have 15 
pieces and somebody lost the box cover.
    Dealing with the uncertainties around the IPCC report, 
okay, that is what we know, in quotes, and as a starting point, 
so we will take that and work with it. So in that respect what 
we did here is what we normally do on a different kind of 
subject and difficulty to go back at the sources of 
information.
    The peer review character is important to this. It is a 
peer--the IPCC report is peer reviewed. It is 
biopharmaceuticals, farmers apply fertilizer on the basis of 
sort of peer-reviewed papers of one kind or another. It is not 
just another hypothesis.
    But the classification of the NIA is one that there is 
several reasons here. It was not a NIC decision. The decision 
to have it classified was the National Intelligence Board, the 
heads of the 16 agencies meeting together chaired by the 
Director of National Intelligence.
    Part of it is we are reluctant to have our input to 
decisionmaking become a part of the debate. We believe 
decisionmakers need the chance to work it.
    The issues, the problems that are identified in our 
assessment here are such that, if they are going to be tackled, 
there is going to be extensive engagement by the United States, 
many components of the United States, with other governments, 
with international agencies.
    Our experience and our judgment is that we would complicate 
and make that much more difficult if we were to sort of 
identify who are the winners, who stand to benefit if nothing 
happens, which governments we consider to be to incompetent to 
manage the problem. Do we direct money to the most competent or 
the most incompetent? Where there are the most people affected 
or likely to have the shortest----
    There are many, many policy decisions that seem to me could 
be informed by this report and that stigmatizing in some way 
the potential partners by the judgments that we make about them 
strikes us as the wrong way to go about it.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the ranking member of the Intelligence 
Committee, the gentleman from Michigan, Mr. Hoekstra.
    Mr. Hoekstra. Thank you. Just a couple of questions or 
comments.
    Low to moderate means you don't know. I mean, we have read 
National Intelligence Estimates where there are high confidence 
in those types of things, and they have proven to be wrong. And 
even in their high confidence it says, you know, we could still 
be wrong. Low to moderate means--I believe that is accurate, 
correct? You really don't know?
    Mr. Fingar. Yes.
    Mr. Hoekstra. It is a pretty low standard.
    Mr. Fingar. Yes, but this is not a fact.
    Mr. Hoekstra. But it is a very low standard in terms of the 
rankings as to what we see in national intelligence 
assessments?
    Mr. Fingar. Right, but this is one of the things that you 
will appreciate, being on the Intelligence Committee, where the 
estimates, where the confidence levels are based on the 
quantity and quality of the information we have available.
    Mr. Hoekstra. Right.
    Mr. Fingar. Those kinds of criteria, trying to take it out 
to different kinds of information, we have got a lot of 
information of which we are incapable ourselves of assessing 
the quality.
    Mr. Hoekstra. The second, what value, exactly, did the 
Intel Community add to this process in terms of HUMINT 
collection, SIGINT collection, you know, clandestine 
collection? Where was the value that the Intel Community added 
in this?
    Mr. Fingar. There is--correct me if I am wrong in that, but 
there is no clandestine collection involved in this. It is just 
working with open-source information. And the value was the 
experienced analysts who know how to look at national security 
implications of various situations--country specialists, region 
specialists, economic specialists, military specialists, who 
were able to look at the data that came out of stage three.
    Mr. Hoekstra. We don't have that at State?
    Mr. Fingar. You have some, of course----
    Mr. Hoekstra. I mean in terms of taking a look at global 
trends and these types of things, the Intelligence Community is 
in a better position to do that kind of analysis on global 
trends than what we have in the State Department?
    Mr. Fingar. I don't know if the Congress asked the State 
Department for this. They asked us to do it. You asked us to do 
it.
    Mr. Hoekstra. Why can this report not be declassified?
    Mr. Fingar. I don't have anything to add to the answer I 
just gave your colleague from California.
    Mr. Hoekstra. I mean, I support the chairman of this Select 
Committee in terms of asking for the report to be declassified, 
because I see--I don't see anything that the Intel Community 
has added to this study. I don't see any disclosure of 
clandestine, covert information, as far as I can tell.
    I would welcome this report to be studied or to be released 
to see how little value I think was received as an output of, 
perhaps, good work by the Intel Community but tasking the wrong 
people to do the work. I am all for releasing this.
    Ms. Eshoo. There is a bipartisan sensibility on this.
    Mr. Hoekstra. Yes. I see no intel value that came out of 
this report that says, wow, we really need to protect these 
sources, methods or process.
    Mr. Sensenbrenner. Will the gentleman yield?
    Mr. Hoekstra. Yes.
    Mr. Sensenbrenner. I agree that this should be 
declassified, as well, based on Dr. Fingar's testimony that 
there wasn't any clandestine information that added value to 
the report.
    Mr. Hoekstra. I said this from the beginning. We are asking 
the wrong agency to do the wrong work. There are other more 
pressing intelligence needs that are out there right now.
    I would apologize for Congress asking you to do this work 
in the first place. This could have been--as you have said, 
most of this is open-source information. You have gone through 
it. You have reviewed it. You said, hey, if there is climate 
change--and, as my colleague pointed out, if temperatures go up 
we have got a problem; if temperatures go down, we have got a 
problem, you know; and we can say that with low-to-moderate 
confidence.
    There are a lot more pressing issues out there for the 
Intelligence Community to be focused on right now that would 
help keep America safe and that would actually enable the 
Intelligence Community to do what I think we are spending $40 
billion a year on, and it is not speculating on open-source 
information. It was a waste of time, a waste of resources for 
the Intelligence Community to be focused on this issue versus 
other folks in the government that could have done this job and 
have a responsibility for doing it.
    I am assuming we didn't go--did we task anybody to go into 
these countries and to ask whether countries were developing 
strategies potentially to deal with global warming in these 
areas?
    Mr. Fingar. We did not.
    Mr. Hoekstra. I am sorry?
    Mr. Fingar. We did not.
    Mr. Hoekstra. I mean, I would think that is what we want to 
know. Does Russia, do countries in Africa, are they thinking 
about global warming? Are they tasking and developing plans to 
deal with global warming, instability? If they are, what those 
are?
    That is what I think would be of interest from the 
Intelligence Community saying, you know, get into these 
governments and see how they are planning on dealing with it. 
Because that would be the insight that the Intel Community 
could give us that we can't get from open sourcing. But it 
appears that that didn't even happen.
    With that, I yield back my time.
    The Chairman. The gentleman's time has expired.
    The gentleman from California.
    Mr. Issa. Mr. Chairman, at this juncture I would ask as a 
unanimous consent that the Chairs and the ranking members 
prepare, at the end, the conclusion, a request for a 
declassification; and in lieu of declassification, if that is 
turned down, that we have a redacted version so that all of us 
on the committee can see what, if anything, is being held as 
closed. Because, clearly, the vast majority of this document, 
if not the entire document, should be declassified.
    The Chairman. I thank the gentleman for that suggestion. I 
would propose that we do work together jointly as committees; 
and the majority and the minority can go on to accomplish that 
goal, I think. I thank the gentleman for that proposal.
    Mr. Fingar. Mr. Chairman, if I may beg your permission to 
catch my airplane, my colleagues would--but we would certainly 
receive the committees'--the joint two committees----
    The Chairman. Could I ask you, Dr. Fingar, if you could 
just answer questions from one more member before you leave? Is 
that possible? I mean, is it a classified time that your flight 
is leaving?
    Mr. Fingar. No, it is a 12:30 flight.
    The Chairman. Oh, 12:30 flight. I think, out of courtesy to 
the gentleman--I apologize to the members.
    We thank you.
    Mr. Fingar. But my colleagues are very well-equipped.
    The Chairman. All right. Before you do leave, sir, do you 
stand by the conclusions in the National Intelligence 
Assessment?
    Mr. Fingar. Yes, I do. Yes, I do. And I would pick up on my 
exchange with Congressman Holt that the fact that the material 
we used in this was not classified, it does not lessen the 
significance of having the Intelligence Community analytic 
capabilities arrayed against it. Information is information. 
Knowledge is knowledge. How we get it and so forth is less 
important than does it inform our judgments. And I absolutely 
stand behind this, both the statement and the assessment.
    The Chairman. Thank you, Doctor, very much and thank you 
for your contributions to the security of our country.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Thank you, Dr. Fingar, for being with us today. We 
appreciate it.
    Because of the international nature of intelligence, how 
would you gauge the sharing of information between the U.S. and 
allied nations, particularly as it relates to this issue, 
climate change and security? The point I am making is we 
obviously have to depend on other nations as we secure 
intelligence. Is that a free-flowing or is that a difficult 
proposition?
    Mr. Burrows. In terms of this study, we did share the 
analysis with our commonwealth partners and also solicit their 
comments and reactions to it at several different stages. We 
also have had, also, interaction with other services in other 
countries on this issue, so I can----
    Mr. Cleaver. Are we perceived, as best you can determine, 
as 21st-century thinkers with regard to climate change? Are we 
perceived around the world, with our allies, as 21st-century 
thinkers?
    Mr. Burrows. You are talking about the Intelligence 
Community?
    Mr. Cleaver. Yes, yes.
    Mr. Burrows. Certainly on this issue, I mean, they were 
very interested in our analysis and, for the most part, shared 
and agreed with the conclusions of it.
    Mr. Cleaver. What--either, any one of you, what is it, do 
you believe, to be the greatest threat to national security 
caused by the effects of climate change?
    Mr. Burrows. Well, I think as we, as Dr. Fingar indicated 
in his remarks, and we put in the statement for the record, it 
is the fact that it has this cascading effect on other 
problems. So it is really the confluence of climate change and 
the impacts on various parts of the world with what are already 
existing problems. And there is a long list of these that he 
mentioned in his statement, you know, poverty, a marginal 
agricultural production to begin with, migration issues and so 
on. So it is, actually, the inner section of climate change 
with these others that is the most troublesome.
    Mr. Cleaver. I read an article recently where the writer 
was talking about the problem--the problems we are going to 
have with water. They talked about the fact that Lake Meade in 
California would probably be bone dry in 12 years, and they 
said there would probably be wars fought over water, or 
conflicts fought over water, the Nile, the Jordan. Is that an 
exaggeration?
    Mr. Burrows. It is an exaggeration in the sense that it is 
not inevitable. In fact, on, you know, on water, these disputes 
have existed in some ways for some time. I mean, we detail 
action in reports, some--there are some existing water 
problems.
    The key is if you have an institutional mechanism in place 
for sorting out water disputes, I mean, that then decreases the 
risk of a conflict happening. So it is correct to say that 
these could be water--who siphons off water, how much water, 
scarcity, there is all these factors, increase the risk of 
tensions and conflicts. But it is not, I don't think, fair to 
say that that conflict is inevitable just because you have 
these facts.
    Mr. Cleaver. Thank you.
    I yield back 28 seconds, Mr. Chairman.
    The Chairman. I thank the gentleman very much.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. I appreciate it and 
appreciate the time; and, to the panel, thank you very much for 
your service and the report.
    I would like to focus--I am a member of both the 
Intelligence Committee and the Armed Services Committee. I 
would like to focus my first question on the declassification 
decision and go down a little bit there. Mr. Mowatt-Larssen, I 
appreciate your service to our Army, to the CIA, now the 
Department of Energy. I had the great honor of teaching at your 
alma mater, West Point.
    I know Dr. Fingar said it. I wrote it down here. He said it 
wasn't a NIC decision. You were privy to this. Whose decision 
was it not to declassify this report?
    Mr. Mowatt-Larssen. Well, we, as one of the 16 agencies in 
the Intelligence Community, of course, we participated in the 
discussion about both on the content and then in the consensus 
on how to handle it. I would just have to echo Dr. Fingar's 
comments that we, of course, supported that decision.
    I think the----
    Mr. Murphy. Can I ask you to slow down a little bit? Of the 
16 entities, though, was it someone from those 16 agencies that 
said we should not declassify this or is it someone above those 
agencies?
    Mr. Mowatt-Larssen. I am not privy to specific details 
other than the fact that we all participated in the process of 
both drafting the document--particularly the Department of 
Energy, with our national laboratories in particular. Our 
primary contributions to the NIA were scientific expertise, as 
you imagine, on some levels and computer modeling and then, of 
course, also as an intelligence entity within the Department of 
Energy.
    So I would defer to my colleague, Matt, on any further 
drilling down on that process of classifying.
    Mr. Murphy. I am sure you understand we are a little bit 
perplexed why you did not declassify this document. Why it was 
classified to begin with?
    Mr. Burrows. Well, again, as has been alluded to at the 
National Intelligence Board meeting, all the 16--which is 
chaired by the Director of National Intelligence, all the 16 
agencies sit around the table and one of the questions deals 
with the classification and the release, so on, to allies. In 
that session, there was a unanimous agreement by all the 
agencies to not declassify this report.
    Mr. Murphy. It was a unanimous decision to classify it?
    Mr. Burrows. To keep it classified.
    Mr. Murphy. Okay, I just wanted to be sure.
    I am going to change over to the armed services side here.
    If you could elaborate on as far as what you think the most 
significant impact on U.S. homeland security, specifically as 
relates to when you look at global warming, the rising of the 
water--a lot of our military bases are on the coastline. When 
you look at San Diego shipbuilding, when you look at 
Connecticut and Groton, shipbuilding there as well, but also 
the other military bases, the Marine Corps and the Army. Could 
you elaborate on that effect on Homeland Security and the 
implications there?
    Mr. Burrows. Okay, we actually identified three areas--
broad areas where the impact would be greatest on U.S. 
homeland, and that was dealing with the drought in the 
Southwest. Then, secondly, the infrastructure along the east 
coast, and this would be affected by storm surge.
    Mr. Murphy. And third?
    Mr. Burrows. And third was dealt with these installations 
as well as nuclear power plants. Most of them are located--I 
mean, the military installations that we looked at are located 
along the coast, so it is linked with the second.
    Mr. Murphy. What recommendations does the panel have that 
this Congress should be aware of that we should move forward on 
when you look at those three areas that you targeted?
    Mr. Burrows. Well, as members of the Intelligence 
Committee, we don't make policy recommendations. I mean, we 
tell you what we think based upon the climate science and also, 
you know, what the data tells us about possible threats. We 
don't actually recommend particular steps to be taken.
    Mr. Murphy. So, in your professional judgment, you can't 
give us any idea what we could do to mitigate potential damages 
of global warming?
    Mr. Burrows. No. In the first place, that is not our job. 
But, also, in the second place, as we have talked about here, 
we didn't actually look at mitigating strategies in any depth.
    Mr. Murphy. I see the balance of my time has expired. I 
thank the gentleman.
    The Chairman. I thank the gentleman.
    The Chair recognizes the gentlelady from California.
    Ms. Eshoo. Thank you, Mr. Chairman.
    I just want to get something down for the record that I 
think really is very important, especially around this whole 
area of confidence levels in NIEs and, in this case, the NIA, 
and that is on Iraq having chemical and biological weapons and 
was close to making a nuclear weapon.
    Of course, this was all put out in the run-up in the 
rationale to invade Iraq. That was high confidence. So I think 
that we need to understand the context of these things and 
maybe even remember the old Boy Scout motto, ``Be prepared.''
    I think if this discussion is about anything, it is about 
using the science, not political science, but using the science 
and the best minds of our Intelligence Community to be prepared 
and to map out a plan not only for our own country but to work 
with nations around the world. Because it threatens the entire 
global community.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Nuclear winter, or the lack of it, has been brought up 
twice by members on the other side of the aisle as a relevant 
example of alarmist predictions that never took place.
    Well, I am delighted that nuclear winter never took place, 
but the very fact that nuclear winter was brought up in this 
context shows a complete lack of understanding of what nuclear 
winter pertains to, namely, that it is a consequence of nuclear 
war, which helps explain some of the gross misunderstandings we 
are seeing with regard to the national security and economic 
implications of global warming.
    Now, much better analogies are CFC emissions impacting 
outer atmosphere ozone and acid rain. In both of these cases, 
national action and global cooperation mitigated the threat 
without destroying the U.S. economy, contrary to the dire 
predictions of the same critics who believe that mitigating 
climate change will have dire consequences to our economy.
    Now, Dr. Burrows, you wrote in the testimony, I assume, 
that you are at least participating in that, that as scientific 
modeling improves intelligence agencies will see more valuable 
studies and more valuable data. Are there any scientific 
capabilities needed that don't exist and for which none is 
being developed?
    Mr. Burrows. Well, on the--as far as scientific 
capabilities in the Intelligence Community, I think Dr. Fingar 
explained--I mean, what we are looking at is using the 
capabilities outside the Intelligence Community on this issue 
of climate change. We are not looking to develop within the 
Intelligence Community, particularly, scientific capabilities, 
because we see that as a duplication and probably not a very 
good use.
    Mr. McNerney. Well, are there capabilities that need to be 
developed that aren't being developed that you could identify?
    Mr. Burrows. I am not qualified on a scientific side to say 
what scientific capabilities need to be developed.
    I can tell you, as we have put out in the testimony, areas 
where we would like to put more of our effort in looking at the 
security implications, but I can't tell the scientific 
community outside what they should be doing.
    Mr. Mowatt-Larssen. Sir, if I may add to that.
    Mr. McNerney. Sure.
    Mr. Mowatt-Larssen. I think your question really touches on 
a very important philosophical point. The ownership of this 
problem, in particular, touches on all communities. The 
Intelligence Community undoubtedly has a role to follow the 
NIA, but so do, for example, the Department of Energy and 
national laboratories.
    We have extensive capabilities. I can't speak to all of 
them, with things like computer modeling, renewable and energy-
efficiency technologies, mitigating greenhouse gas emissions, 
systems dynamics analysis, rural data center atmospheric 
trace--just a sampling of capabilities in our own national 
laboratories. There the culture is this great transparency of 
collaboration internationally with foreign partners, foreign 
countries, foreign scientists. I think one thing the 
Intelligence Community can do to build on some of the 
discussion up to this point is exploit our open source, open 
innovation capabilities, to bring all that in as best possible 
to improve, to improve our baseline.
    The NIA is a baseline. It is not the end product of where 
we are going to end up on this; and the key is this 
international collaboration, private/public sector partnership.
    Mr. McNerney. Well, it was recommended that the 
Intelligence Community should conduct a scenario exercise. 
Aren't these scenario exercises already being conducted?
    Mr. Burrows. Yes. I mean, we routinely conduct scenario 
exercises. This pertains to a scenario that are not scientific 
scenarios but ones dealing with implications of security, 
political and economic and so on. We do that. As the testimony 
indicated, we would like to do more of this, particularly when 
it pertains to this issue of climate change.
    Mr. McNerney. Well, much of the oral testimony that Dr. 
Fingar gave had to do with a methodology. How confident are 
you--and this is a question that has been circulating this 
morning--how confident are you of the methodology that was 
used?
    Mr. Burrows. I think we are highly confident of the 
methodology that was used just for the purposes, I think, that 
all of us related, that we went out and sought out, as best we 
could, the expertise on the outside, both in terms of the 
science and, secondly, also using outside experts along with IC 
experts to determine the implications. But this is done--as we 
put in the report, this is an imprecise science. I mean, you 
are dealing with a 20-year projection. There are a lot of 
factors. You cannot be totally certain of how these things will 
work out.
    Mr. McNerney. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. I thank you, Mr. Chairman.
    Mr. Burrows, you just said you had a high confidence in 
your methodology. Dr. Fingar said that he was working from the 
mid-level assessment of the IPCC, which is a document that has 
been accepted by our government and is a consensus of 
scientists from countries around the world. That was 
corroborated by peer review by the Climate Change Science 
Program, Department of Energy National Laboratories and the 
National Oceanic and Atmospheric Agency, or NOAA--none of which 
are tree-hugging environmental groups, by the way, to my 
knowledge--also, the University of Maryland, the Pacific 
Northwest National Laboratory, the Naval Postgraduate School, 
et cetera, et cetera. At what point and by whom was this rating 
of low-to-moderate confidence given to the report?
    Mr. Burrows. Well, this happens in the cases of all 
National Intelligence Assessments and Estimates.
    Mr. Hall. I just want a simple answer, because I only have 
4-minutes.
    Mr. Burrows. Okay, it is done at final stage of the 
coordination process. This is a working-level coordination.
    Mr. Hall. By whom, please?
    Mr. Burrows. All the agency reps at the coordination 
session.
    Mr. Hall. I would love to know the names of those people.
    In terms of low confidence or moderate confidence, how 
confident are you right now that the Mississippi River is 
flooding and 300-plus miles of shipping are closed due to high-
water levels?
    Mr. Burrows. High, confident.
    Mr. Hall. How confident are you that five Boy Scouts were 
sucked up in a tornado and killed in the last few weeks?
    Rhetorical questions, okay.
    How confident are you that there is an early fire season 
starting and raging in the Rockies and California mountains?
    How confident are we that a typhoon just killed 800 people 
on a cruise ship or a ferry in the Philippines and shortly 
before that a cyclone killed many people in Myanmar?
    How confident are we that there is a drought in Georgia and 
north Florida that was so severe that last year they had to 
close nuclear power plants because there wasn't enough water 
for the cooling system? Do you remember that?
    Mr. Burrows. Yes, these are all facts.
    Mr. Hall. Your report says ``increased intensity and 
frequency of severe weather events'' are likely. How confident 
are you that these phenomena we are witnessing in seemingly 
more and more frequent sequence could fit the model that your 
report describes of increased intensity and frequency of 
storms?
    Mr. Burrows. I am not, on that level, confident.
    Mr. Mowatt-Larssen. Sir, to the point on the low-to-
moderate confidence, I think it is very important to note that 
that assessment is based on the variability of the science 
listed. It is not to suggest that it is conservative or 
pessimistic but that, in fact, as we know more about the 
science, as the science is a greater consensus across the 
board, we may, in fact, determine that we have underestimated 
the threat as much as we may have overestimated it. There is no 
suggestion in low to moderate that the problem is not real.
    Mr. Hall. Oh, thank you for saying that you may have 
underestimated. I am glad to have that on the record.
    The one thing I agree with my minority colleagues about is 
that this report should be declassified in its entirety with no 
redacting. I didn't see anything that I thought needed to be 
redacted.
    Mr. Mowatt-Larssen. Sir, there is one thing in the report, 
if I might add to your point, that would talk about factors 
that may dramatically change our assessment. Tipping points, 
those are included in the reports as illustration of some of 
the viewpoints that still may ultimately greatly affect the 
outcome of our assessment.
    Mr. Hall. Right, and the more information that is withheld 
from the public, the harder it will be to convince people that 
climate change is happening and that we need to make the right 
decisions, not only for our national security but for our 
economic security.
    We could have invented Prius here, but decisions made by 
our government and our industries allowed somebody else to get 
to that hybrid technology first, and we are suffering from it. 
Our national security is suffering through the increased use of 
foreign oil and the flow of dollars overseas.
    I want to ask one last question, because I know I am going 
to run out of time on the answer.
    The scenarios described today by you would potentially--
with the U.S. potentially being drawn into humanitarian 
interventions because of refugees of climate change crossing 
boundaries in our hemisphere, among others, the necessity of 
the United States to referee fights over water throughout the 
globe are truly daunting.
    As we have seen in Iraq, a large sustained military effort 
has had a draining effect upon our military and National Guard. 
I am curious what your thoughts are. Under the scenarios laid 
out in the report, what would our military end strength need to 
be to address these new challenges while still meeting 
traditional national security demands? How much additional 
spending would that require?
    Mr. Burrows. Well, again, we can't make any recommendations 
on specific spending requirements. What we indicated there was 
that, in view of the conclusions that we drew that humanitarian 
situations were more likely to occur in the future and the U.S. 
would be probably, as you say, drawn into it, and that is the 
extent of the analysis and judgment.
    Mr. Mowatt-Larssen. I might add to that as well. I think 
that question specifically raises the broader question of what 
will policymakers need in the future to answer questions like 
that and what will they need from us. I think the very simple 
response to that is adequate forecast, foresight and warning. 
In a classic intelligence context, how long ahead of problems 
will they need that foresight and warning and what will it 
consist of?
    Mr. Hall. Mr. Chairman, thank you.
    I just want to close by saying that I hope that the modest 
economic benefits that you show the United States gaining from 
global warming do not include the flooding of Cedar Rapids or 
the three 50-year floods in the last 5 years in my district in 
New York.
    I yield back.
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    Just reading the Doctor's report, it says, ``We judge 
global climate change will have wide-ranging implications for 
U.S. national security interests over the next 20 years. 
Climate change could threaten domestic stability in some 
States, potentially contributing to intra- or, less likely, 
interstate conflict, particularly over access to increasingly 
scarce water resources. We judge that economic migrants will 
perceive additional reasons to migrate because of harsh 
climates, both within nations and from disadvantaged to richer 
countries.''
    Now, I don't think you have to be an intelligence or secret 
agent with classified experience to recognize this is a 
security concern of the United States. I want to ask you about 
what we are doing about that.
    Many of us believe we should stop global warming so we can 
eliminate or reduce these security threats of the United 
States. I want to ask how we go about that.
    I want to refer to a chart. This is a chart showing our 
research budgets for a variety of national enterprises.
    On the left is the chart for the research budget. This is 
the research budget for the United States for our entire energy 
R&D research budget. You see it peaked in 1980. It has gone 
down since. It is about $3 billion per year. This is the 
research budget for our health expenditures in the United 
States. It is up to about $34 billion a year.
    On the right is our traditional DOD research and 
development budget. We see it has gone up precipitously, is now 
in excess of about $82 billion.
    We are spending about $82 billion a year on R&D on weapons 
systems, but we are spending $3 billion a year trying to 
prevent the most massive weaponized system against the very 
climate system upon which life depends on the planet Earth. To 
me, there is a serious question whether or not we are doing 
adequate research and development to prevent this security 
threat to the United States.
    If you think these, with all their terror, are in 
Afghanistan and Iraq, this weapons system that we are 
unleashing on the world is going to have national security 
implications well beyond any localized conflict. I think your 
report makes that clear. Yet we are spending peanuts, crumbs or 
less. We are spending 55 times more money fighting war in Iraq 
in this oil-rich region than we are trying to figure out a way 
to stop climate change and developing clean energy for the 
future of the country.
    So it is a bit rhetorical, but I will ask the gentleman or 
gentlelady to comment about whether or not having an adequate 
research and development budget to build clean energy 
technology for the United States, to prevent global warming, to 
prevent the internecine conflicts in the Sudan--they are raging 
today over water, not 20 years from now. They are fighting over 
grass and water in the Sudan and Darfur today. We are 
experiencing forest fires in Alaska, in Georgia, and floods. We 
are experiencing rainfall that closed a national park for the 
first time in 140 years, today, not 2030.
    So I would just ask you, do you think it makes sense, given 
the security implications of global warming, that we do a 
little better job on our research and development budget to 
make it consistent with the nature of this threat?
    Ms. Monaghan. I think, as Dr. Burrows indicated, we in the 
Intelligence Community don't make proposals about what 
policymakers should decide. But I think, after doing this 
report, the one thing that became very clear is a lot of this 
is about trade-offs. One of the reasons we did such a--more 
than a 20-year projection is because some of the decisions that 
will be made will need a long time horizon in order to get an 
impact. When you are talking about the food and fuel crisis 
today, any solutions to that crisis, if implemented today, 
would take 10, 15 years to pan out.
    So, it is all about trade-offs, and it is all about 
thinking about, you know, if you make one decision on 
mitigation or adaptation, what are the implications of that? I 
think that is what we were beginning to unpack in this 
assessment.
    Mr. Inslee. Well, let me just ask you for your thoughts. I 
understand your limitations, but, you know, doesn't it seem to 
you that if we can prevent a very significant increase in 
world-wide tensions--and I think it is very clear that this is 
going to cause a very significant increase in worldwide 
tensions, which has the possibility to result in conflicts that 
one way or another we get dragged into. We have got troops all 
over the globe because of local tensions that have boiled over 
or may boil over. Doesn't it make sense to try to prevent those 
tensions from developing, to try to reduce national security 
concerns of the United States, and is an R&D budget critical to 
that?
    Mr. Mowatt-Larssen. I would add taking that to a broader 
level of providing the kind of information to policymakers, to 
informed decisions, whether that is over R&D budgets or over 
decisions of where to put our priorities. And I agree with my 
colleague. We have to think of those things in a much broader 
sense.
    One of the things that hasn't come up today is that this 
effort, if we are going to understand global warming in the 
proper context, beyond the science, it is going to involve--has 
to involve a multi-disciplinary, global, international-type 
approach, bringing best knowledge everywhere, to put that into 
information that we get better at providing over time to our 
policymakers so they can make informed decisions.
    Mr. Inslee. We have got a lot of knowledge. We just don't 
have any action after 8 years, this administration. We are 
going to start that in the next one.
    Thank you.
    The Chairman. The gentleman's time has expired.
    All time for questions of this excellent first panel has 
expired. We thank you so much for the work that you have done 
in presenting this information to us.
    Again, on a bipartisan basis, we are going to be making a 
request to you to declassify this document--not to you 
specifically but to the administration--so that we can have a 
fuller discussion of the basis upon which this analysis has 
been made.
    With the thanks of both committees, we will now move on to 
the second panel. Thank you so much.
    The second panel consists of four or five very 
distinguished citizens of the world. But because of our time 
constraints and her inability to stay with us for a longer 
period of time, I would like to ask that we allow our first 
witness to give her testimony. She is the Right Honorable 
Margaret Beckett.
    Mrs. Beckett is joining us today in her personal capacity 
as the former Foreign Secretary of the United Kingdom. We 
understand that you will have to leave after providing your 
testimony.
    Mrs. Beckett, we welcome you. We thank you for joining us 
today, and we thank you for your service to our planet and your 
time in public office. Whenever you are comfortable, please 
begin your testimony.

   STATEMENT OF RT. HON. MARGARET BECKETT MP, FORMER FOREIGN 
 SECRETARY, UNITED KINGDOM, C/O HOUSE OF COMMONS, 1 PARLIAMENT 
                    STREET, LONDON SW1A 2NE

    Mrs. Beckett. Thank you, sir. I have been listening with 
great interest to the latter part of your first panel, and I 
will be as brief as I can because of the pressures on your time 
and mine.
    I think at present we are getting a sharp reminder of the 
impact of insecurity, whether it is energy insecurity, food 
insecurity, water insecurity, and the impact that can have 
across the world and how its fostering instability. For 
example, we have seen food riots in many countries across the 
world.
    About a year ago, as Foreign Secretary, I chaired the first 
U.N. Security Council debate on the relationship between 
climate change and peace and security. Some 55 countries took 
part, an unprecedentedly large number for such a Security 
Council debate, with the Secretary General and all his senior 
staff--and it was the representative from the Congo who said, 
during that debate, this won't be the first time people have 
fought over land, water and resources, but this time it will be 
on a scale that dwarfs the conflicts of the past.
    Certainly we take the view that the impact on the global 
economy, which I have just heard your colleagues refer, on 
conflict, on the risks of conflict on climate change are all 
linked together. We are seeing a resource crunch across the 
world at the moment. We are seeing, perhaps, structural shifts 
in the global economy which may require a structural shift in 
response, and we feel that all of these things reinforce the 
need to address climate change.
    I heard one of your witnesses, I think, indicate that 
energy security and climate security go hand in hand. Tackle 
one, and you are tackling the other.
    As we look across the world in the UK, it is clear that 
there are countries that have greater or lesser abilities to 
tackle some of the impacts that we believe we will fight. But 
it is also clear the Stern approach that the British public 
published--commissioned a year ago indicates that it will not 
cost the Earth to change our economies in a direction which can 
help us tackle the impact of climate change, but it could if we 
don't. He insists then the minimum cost is about 5 percent of 
global GDP of inaction of climate change. He now says he thinks 
he was too optimistic.
    My final point is that climate change--certainly I see, and 
the British government has seen--is a threat multiplier. It 
interacts with other problems that exist, interacts to make 
them worse, pressures on migration, as again has been mentioned 
already in your committee.
    Less than a week ago, the second-most-senior official in 
our Ministry of Defense made the point at a meeting in London 
that our defense ministry sees these issues as a real threat to 
our national security, and we see that as being the case across 
the world.
    Thank you.
    The Chairman. We thank you very much.
    [The statement of Mrs. Beckett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Would it be possible for you to answer a 
couple of questions from the committee?
    Mrs. Beckett. Sure.
    The Chairman. Great.
    Let me just ask you how you found the British public's 
understanding of the security implications of global warming 
and whether or not it helped to inform the discussion of policy 
solutions in your country?
    Mrs. Beckett. I think the people understand the issue. What 
they don't understand yet is the urgency. There is a tendency 
to assume this will be a problem for our children, so that 
makes it a moral dilemma but not necessarily the recognition of 
the fact that it can be a problem for us within 5, 10, 20 
years. Again, perhaps a better recognition of the impact on 
migration, but on some of the other issues, although every day, 
as the resource crunch continues, concern about food 
insecurity, water insecurity, energy insecurity is increasing.
    The Chairman. Well, let me turn and recognize the ranking 
Republican on the committee, Mr. Sensenbrenner, from Wisconsin.
    Mr. Sensenbrenner. Thank you very much, Madam Foreign 
Minister.
    As you may know, I have somewhat of a skeptical view of 
this entire issue, and I am deeply concerned about the impacts 
on the economies and on the people of some of the changes that 
have been proposed.
    You may recall at this time the European Commission reduced 
the cap on carbon emissions for EU countries, including the 
United Kingdom. Shortly thereafter, the Times of London ran a 
story that said that this will cost the British electric 
generating industry approximately 6 billion British pounds, or 
12 billion USD, per year in order to buy the carbon offset 
credits necessary.
    Of course, all of this would end up being passed on to 
ratepayers and consumers of electricity.
    Furthermore, this story indicated that about two-thirds of 
the credits would be purchased outside the European Union.
    This is not a free lunch, and I am wondering what the 
British government is proposing to help residential ratepayers, 
particularly those on fixed incomes, to pay for this huge 
increase in the cost of electricity that they are going to need 
to light their homes and maybe even heat them.
    Mrs. Beckett. I think everybody would share your concern if 
it was believed that in the round there would be a very 
damaging and only a damaging economic impact.
    You picked up, quite rightly, on the increase in energy and 
costs. The British government already does give extra help, 
particularly to the least well off, to the elderly and the most 
vulnerable, and is looking all the time at how much more can be 
done and when it can be done.
    But I think I would suggest that although, for those who 
like me are believers in the science, it would be much more 
difficult if we believe that the net impact, the overall impact 
would just be damaging. But we, many of us, believe that, in 
fact, if you look at the position in the round there are 
advantages as well as disadvantages.
    Let me give you a specific example. It is now very much 
predicted that ice in the Arctic will disappear faster than 
anyone had imagined. That can cause problems, but also, of 
course, it could create new trade passages. It could free up 
the availability of greater resources. One of the challenges 
for the world community is to try to see the availability, for 
example, of those trade routes, of those resources doesn't feed 
conflict and instability by trying to encourage international 
cooperation.
    So, yes, of course, there will be some damaging impacts, 
but there are huge opportunities to, not least for those who 
are the first movers in the industries, in the technological 
developments that would be required.
    Mr. Sensenbrenner. That is 6 billion pounds of higher 
electricity cost and in a country the size of the United 
Kingdom is a lot of money. It is going to impact on people who 
are the least likely to pay the most if, all of a sudden, next 
month's electricity bill will be two or three times their 
current electricity bill. Is the government prepared to have a 
welfare program that is that vast in order to prevent people 
like this from, frankly, going broke or freezing during the 
winter?
    Mrs. Beckett. Well, as I said, Mr. Sensenbrenner, the 
government does, in fact, have such a program, although I no 
longer speak for the government.
    But can I add that, yes, there is an impact on the costs of 
the electricity companies. Those same companies have made 
equally similarly large sums of money over the last several 
years in terms of extra profits. There is much discussion about 
how they can work with the government to help those who are 
most vulnerable.
    So that is constantly kept under review, and that will 
always be the case in every country. I assure you I am as 
conscious of the need to get re-elected as any politician. So, 
yes, of course, we recognize the impact, but there is another 
side to the coin, which is not always recognized.
    Mr. Sensenbrenner. Thank you.
    The Chairman. The gentleman's time is expired.
    If you don't mind, the other members of the committee, we 
will just recognize members for 2 minutes for questions from 
Mrs. Beckett. I know she has to leave, and we could still 
accommodate the other witnesses on this panel.
    The Chair recognizes the gentlelady from California, Ms. 
Eshoo.
    Ms. Eshoo. Thank you, Mrs. Beckett, for joining us. I think 
that you not only honor us but you grace this very important 
hearing. We all want to salute you for the incredible role that 
you have played and the contributions that you have made. I 
just couldn't mean that more, and I am so delighted that you 
are with us today.
    As a former Secretary and now as Chair of the Parliament's 
Intelligence Community, you have been the principal user of 
national intelligence, as well as being responsible for its 
oversight. Today, as you know, we are examining the marriage, 
the bringing together of national security and the whole issue 
of climate change. Can you tell us what sort of information or 
judgments related to climate change do policymakers need from 
their intelligence services?
    I am sure you have already heard and picked up on the 
diminishment of even bringing the two together, that we have so 
many other things to do in the world. And this tinkering around 
with whether temperatures go up or down and perhaps some 
inexact parts of the science, we need to leapfrog over this 
stuff and really get to important things.
    Can you comment on that and kind of fill in the blank as to 
what you think, what sort of information or judgments we need 
to bring about in the cooperation of the international 
community's Intelligence Communities?
    Mrs. Beckett. I think the main thing that can be 
contributed by the international community's Intelligence 
Communities at present is in the area of analysis.
    I understand. I sympathize very much with those who say, 
there are lots of important challenges. Is this so immediate?
    All I can tell you is that it is factored into the work. 
The analysis of what the governments believe are the problems 
they are going to face, the analysis of what they are likely to 
do in order to begin to address those problems.
    For example, I heard mention of India. I am told that India 
has begun to construct an 8-foot fence along their border with 
Bangladesh, no doubt partly as matter of a concern about 
migration.
    The department I previously headed, the Department of 
Agriculture, has worked for a long time with the Chinese 
government about the threats to their food supply that climate 
change poses. This is a huge issue. As the Chinese ambassador 
who said to me, many years ago, when you are the leader of 
China, the first thing you think in the morning is can I feed 
my people today? Because if you can't, you are in serious 
difficulty.
    This kind of understanding is factored into the work and 
the analysis of our Intelligence Committee; and, for example, 
our foreign policy order planners in the Ministry of Defense 
and in the front office are working now on an assessment of 
impact in the Arctic, which I believe they are hoping to share 
with your own community, perhaps in the autumn.
    Similarly, they are thinking about the impact in the 
Arabian peninsula, huge implications there, not least in the 
Nile Valley, Nile delta of sea-level rise, salination and so 
on, all things that are likely to lead to pressures on the 
economies as well as----
    Ms. Eshoo. Thank you very much.
    The Chairman. We thank you.
    The gentleman from California, Mr. Issa.
    Mr. Issa. Thank you.
    Madam Chairman, I appreciate your testimony here today; and 
I will try to be very, very brief in my questions and make them 
British-centric.
    When we talk about the problem, we will accept that it is 
going to happen if we don't stop putting CO<INF>2</INF> into 
our atmosphere. Based on that, Europe has led the way in 
nuclear increases in nuclear energy, while the United States 
has not built a new one since 1979.
    First, how would you caution us on the fact that currently 
the vast majority of our energy is produced by CO<INF>2</INF>-
emitting systems, 51 percent of which is coal?
    Secondly, and this is much more directed to Great Britain, 
you are presently an oil-exporting country, essentially 
exporting carbon knowing that it will be outcast throughout the 
world.
    One, do you think that Great Britain should take a role by 
only using domestic oil and, in fact, not exporting North Sea 
oil?
    Last but not least, in the alternative, if you still wanted 
to export it, don't you think you have a responsibility to pay 
cap and trade on, in fact, the export of that carbon, knowing 
that it is going to be put into the atmosphere?
    Mrs. Beckett. Well, insofar as there is a cap-and-trade 
system in the world, the UK will participate in it.
    With regard to using just our own oil, I am no expert, but 
I understand that for many countries and many uses it is a 
mixture of oils that is required, and it is not always possible 
simply to source everything domestically no matter how much oil 
you have.
    And I understand your point about dependence, for example, 
on coal. One of the technologies which we would like to see not 
just developed, but used, is carbon capture and storage, where 
work is going on in the UK, in the European Union and, I 
understand, in the United States.
    Mr. Issa. I appreciate that, Madam Chair, but you said you 
had to deal with this in 5 to 10 years. In 5 to 10 years, 
developing science can't be an answer. What would you do today 
to reduce the size of the carbon footprint of your own country 
and ours?
    Mrs. Beckett. The biggest thing that we could do is to 
increase our energy efficiency. If you look, for example, at 
what Japan has achieved, that is a tremendous step forward. 
Equally, we are--and I believe the government is likely to make 
a statement soon--we are likely to put greater input into 
renewables.
    I understand your point about nuclear energy, but of 
course, although the British Government is committed to that 
expansion, that itself will take some 15, 20 years or so. So 
energy efficiency and renewables are very much the way for us 
at this moment in time.
    Mr. Issa. Thank you, Madam Chair.
    Thank you, Mr. Chair.
    Mrs. Beckett. Thank you. I have to go, I fear, sir. I think 
all politicians understand the pressures of the vote and the 
whips.
    The Chairman. We are honored that you were able to spend 
the time with us that you have so far. And your contributions 
globally to understanding of this issue and giving us political 
leadership is something that we respect very greatly here in 
the United States; and we thank you.
    And we understand----
    Mrs. Beckett. Thank you very much.
    The Chairman [continuing]. The pressures that you are 
under.
    Mrs. Beckett. Thank you. It has been an honor. I am sorry I 
couldn't spend longer with you.
    The Chairman. Thank you.
    The Chair recognizes now the gentleman from New Jersey for 
the purposes of recognizing one of his constituents.
    Mr. Holt. Thank you, Chairman Markey and Chair Eshoo. I 
appreciate your yielding the floor to me to present to you 
retired Vice Admiral Paul Gaffney. Madam Chair, Mr. Chair, you 
could not find someone better qualified to testify today and 
share wisdom on this subject. Retired Vice Admiral Gaffney has 
had a career applying science and technology to our Nation's 
security, as Chief of Naval Research, as Commander of the Naval 
Research Lab, as a distinguished oceanographer, as a charter 
member relative to this subject of MEDEA, applying national 
technical means to understanding our Earth and its climate, and 
as a member of the CNA study on national security and climate 
change.
    I also think you will appreciate Admiral Gaffney's 
scientific approach to this issue. And I must say I am 
delighted to see him here today, to welcome someone who 
contributes so much to our national security, but also to the 
general welfare of New Jersey.
    The Chairman. We thank you.
    Why don't you begin your testimony, Admiral Gaffney, and 
then we will recognize the other witnesses as well.

 STATEMENT OF VICE ADMIRAL PAUL G. GAFFNEY (RET.), PRESIDENT, 
       MONMOUTH UNIVERSITY, WEST LONG BRANCH, NEW JERSEY

    Admiral Gaffney. Chairman Markey, Chairwoman Eshoo, my 
Congressman, Congressman Holt, thank you, sir, very much--he 
does so many great things for our university--and members of 
the committee, thanks for the opportunity to appear this 
morning.
    I have submitted formal testimony, and I will just try to 
summarize by discussing first, just briefly, the 2007 CNA 
report on the threat of climate change to national security; 
and then to opine, give you my opinion on the value of 
leveraging defense and intelligence capabilities and data to 
both better measure the progress, or even the nonprogress, of 
global climate change, and to inform climate change policy and 
planning, especially security planning. Let me start with the 
CNA part.
    I was a member of the military advisory board that sat with 
the CNA as it developed its report. And I would like to submit 
that report for the record; I think you have all seen it maybe 
for months.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Admiral Gaffney. The report on security and climate change 
does not judge whether or how much climate is changing, does 
not judge whether mankind is responsible for it or whether 
humans can turn it around. Rather, it points to the 
international and regional security consequences of climate 
change if the disturbing environmental signals that we have 
been measuring in our sophisticated last few years continue 
unabated.
    The report likens the threat of climate change to that of 
the strategic threats we endured during the Cold Wars in that 
the probability of disastrous climate change cannot be 
determined with absolute certainty; but the effects of climate 
change, if current trends continue, on international security 
can be so great that one must prepare--plan, if you will--to 
deal with that.
    It finds that the least developed nations of the world are 
most likely to be affected by climate change phenomena and the 
least likely to be able to cope with it eventually or even 
start to adapt to it now. In the report, we call for deliberate 
planning by the U.S. security organizations, meaning combatant 
commanders, intelligence agencies, et cetera.
    I personally think that it is most useful if the climate 
science community at large can be as specific as possible in 
predicting climate change regional effects. Climate change may 
prove to be a global phenomenon, but it will be, I think, far 
from average. In some regions it will be much warmer, in 
others, much colder, especially if we have an abrupt climate 
change event, as has been discussed over the last 5 or 6 years, 
in the North Atlantic. In places it will be wetter, other 
places drier, some places stormier, et cetera. The question is, 
what will those changes be regionally so that U.S. security 
leaders can deliberately include expected results, predicted 
results in their plans?
    To that end, I have seen the value of leveraging the 
talent, sensors, analytical and computational capabilities, and 
the data collected and the data archived by the defense and 
intelligence agencies. I saw that specifically and firsthand 
throughout the 1990s, from about 1991 through 2000, as a 
participant with MEDEA and its related groups.
    I see some benefits, previously unreleased data and 
information from national security systems. National technical 
means, if you will, and others may help climate scientists at 
large get a fuller or clearer picture of what is going on in 
nature. And it is important, I think, increasingly, as we 
wrestle with climate change predictions; it is also important 
as we craft regionally specific plans.
    And secondly, scientists and decision makers within the 
national security community may get better insight into their 
own security-mission-related challenges, not necessarily 
affected by climate change at all, by conferring with top civil 
scientists who have received security clearances and have 
access to capabilities.
    Certainly, deliberate acts of reviewing and releasing data 
or deriving unclassified products from that data, from 
unreleasable data will cost something. But such costs would be 
considerably less than replicating data collection otherwise.
    This cost-benefit point is more important when one 
considers the stakes involved in either underestimating the 
effects of, or overreacting to, climate change or their 
security-jeopardizing regional effects. If I can quote from 
former Speaker Newt Gingrich in his recent book, we cannot 
afford to be wrong about climate change. If national security 
leaders are to make actionable regional security plans that 
consider climate change, they need to know with the highest 
available degree of specificity the effects for their 
respective theaters.
    In these most troubled parts of the world that we worry 
about most, governments are probably not prepared and maybe not 
willing to collect sophisticated, long-time, serious data. Yes, 
the successes of MEDEA are about a decade old, and many new 
sensors have come into being in the civil and the commercial 
world. I have recently seen unclassified compilations of open 
source collectors that can help us monitor the environment in 
this particular case. But the national security communities may 
have different flexibilities in satellite orbits, undersea 
access, resolutions, just a couple of examples. And they may 
also have and probably have useful archives that go back years 
and generations to fill in gaps. It is worth a look, I think.
    The climate change debate is serious. Potential effects are 
also serious. And for regional security reasons, we should plan 
for it. But to plan we need to use the best measurements and 
the best data. We should leverage our best sources from all 
agencies.
    Thank you.
    [The statement of Admiral Gaffney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Admiral Gaffney, very much.
    Ms. Eshoo. Mr. Chairman? Can I ask that the CNA report in 
its entirety be placed in the record of our hearing today?
    The Chairman. Without objection, so ordered.
    The Chair recognizes next Lee Lane, who is a Resident 
Fellow at the American Enterprise Institute. Mr. Lane's 
research focuses on a range of issues related to climate 
policy, and he was the Executive Director of the Climate Policy 
Center from 2000 to 2007.
    Mr. Lane, welcome.

  STATEMENT OF LEE LANE, RESIDENT FELLOW, AMERICAN ENTERPRISE 
                           INSTITUTE

    Mr. Lane. Thank you very much, Mr. Chairman. It is a great 
honor to be here. I would like to thank both chairpersons, the 
ranking members, and all the members of both committees for the 
opportunity to discuss these issues with you today.
    I am Lee Lane. I am Resident Fellow at the American 
Enterprise Institute. AEI is a nonpartisan, nonprofit 
organization conducting research and education on public policy 
issues. AEI does not adopt institutional positions on issues, 
and the views that I am going to express here this morning are 
solely my own.
    I think the committees are to be commended for addressing 
the issues covered in this hearing. Climate change is one of 
the most important and certainly one of the most difficult 
problems facing the world. I have worked for the last 8 years 
on developing economically efficient solutions to this. I think 
all of us are concerned with American national security, so the 
committees have clearly focused on matters of prime importance 
and the intersection of two very important concerns.
    My remarks really can be summarized in three points, which 
I would like to do, briefly, here.
    First, climate change poses a very serious long-term 
problem. However, I have questions about whether looking at it 
through the lens of national security may not provide something 
less than the most useful perspective for viewing it. Some have 
worried that by worsening environmental and resource problems 
in very poor nations climate change may pose a risk to U.S. 
national security. Ecological problems in poor countries are, 
in fact, troubling, and for many points of view; but within the 
next 20 years or so, expected global warming is likely to have 
only a fairly modest effect on these problems, all of which 
would exist were no warming expected to occur whatever.
    Moreover, as many distinguished economists have pointed 
out, in the near-term, efforts targeted at directly alleviating 
the underlying environmental stresses and poverty are likely to 
be far more cost-effective than attempts to reduce greenhouse 
gases will be. That is not to say that reducing greenhouse 
gases isn't extremely important in the long run, but--and this 
is my second point--a balanced climate policy requires careful 
consideration of both the costs of mitigation and its benefits.
    Imposing very rapid emissions cuts are likely to impose 
significant burdens on the American economy. But more 
importantly still, if China and India don't join in efforts to 
curb emissions, our sacrifices will leave little or no 
environmental benefit.
    Furthermore, attempts to use trade sanctions to coerce 
China and India and other nations to adopt greenhouse gas 
limits seem to me to be likely to add to international 
conflict, not to alleviate it.
    Finally, some of the technologies that look to be important 
as potential solutions to the problem of climate change carry 
risks of their own. Certainly a substantial expansion of 
nuclear power raises questions and concerns about 
proliferation, as Chairman Markey has already alluded to. And 
expanding biofuels production, if that indeed turns out to be 
part of the solution, raises the specter of squeezing global 
food supply, another serious problem.
    The real point I am trying to make here is just that trade-
offs are inevitable in climate policy, and that is part of why 
it becomes such a difficult policy problem.
    Third, new technologies will be the key to success, but 
halting climate change requires zero net emissions from the 
global economy. Zero net emissions. Today's technologies are 
not even close to being able to meet this goal at reasonable 
costs, nor will incremental improvements in those technologies 
suffice.
    Devising new, transformational technologies and diffusing 
them globally could easily consume the remainder of this 
century. As time passes and emissions continue, the risk grows 
that high-impact, abrupt climate change might appear.
    I will simply conclude, since I notice my time has expired 
here, by noting that there is possibly a family of technologies 
that might be able to produce a rather rapid global cooling 
even in a high greenhouse gas world.
    The Chairman. We will come back to you in the question-and-
answer period.
    Mr. Lane. Okay.
    The Chairman. Thank you.
    [The statement of Mr. Lane follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Our next witness is Marlo Lewis. He is a 
Senior Fellow in the Competitive Enterprise Institute, where 
his work includes global warming and energy security. Dr. Lewis 
is no stranger to Capitol Hill, having previously served as 
Staff Director of the House Government Reform Subcommittee on 
Regulatory Affairs.
    Welcome, sir.
    Mr. Lewis. Thank you, Madam Chairman and Mr. Chairman; it 
is a real honor for me to be here today.
    Ms. Eshoo. Put your microphone on.

STATEMENT OF MARLO LEWIS, SENIOR FELLOW, COMPETITIVE ENTERPRISE 
                           INSTITUTE

    Mr. Lewis. Thank you. It is a real honor for me to be here 
today. Thank you very much.
    My testimony develops two simple points. First, there are 
security risks associated with climate change, but also 
security risks associated with climate change policy. And that 
leads to my second point, which is that the Intelligence 
Community should assess not only the potential impacts of 
climate change on national security, but also the potential 
impacts of climate policies on national security.
    Let's start with DOD, the single largest consumer of energy 
in the world. Rising energy costs already force DOD to 
economize in ways it never had to do in the era of $30 oil or 
even $60 oil. What happens if cap-and-trade programs push fuel 
costs even higher? Would DOD have to reduce the number and 
scope of training exercises, for example? Maybe not. But it is 
a risk.
    And the Intelligence Community should assess it, consider a 
more fundamental risk. Money, an old adage tells us, is the 
sinews of war. Economic power is the foundation of military 
power. Economic might was critical to winning the Cold War and 
the Second World War and the First World War.
    In democratic politics, moreover, there is always a trade-
off between guns and butter. It is harder in bad economic times 
to raise funds needed to recruit, train, and equip the Armed 
Forces. Rising unemployment and malaise can foster 
isolationism.
    The recently debated Lieberman-Warner bill would require a 
70 percent reduction in U.S. greenhouse gas emissions by 2050. 
Other legislation would go further. Yet, as a forthcoming CEI 
analysis shows, for the economy to keep growing at 2.2 percent 
a year and achieve a 70 percent reduction in emissions would 
require U.S. carbon intensity to decline almost four times 
faster than it has over the historic period of the last 45 
years.
    So maybe, just maybe, big cuts in emissions can't really be 
achieved without big cuts in economic growth. If climate policy 
harms our economy, it could also sap our military strength.
    We heard today that climate change could adversely affect 
natural resource availability, and we could see increased 
conflict among nations and within nations over resources like 
water and food. But climate policy also has a high potential to 
produce conflict.
    Vice President Gore says the whole world must reduce its 
emissions 50 percent by 2050. Since most emissions' growth in 
the 21st century will come from developing countries, this goal 
may not be achievable without, for example, prohibiting China 
and other developing countries from building coal-fired power 
plants.
    Already some U.S. and European leaders are calling for 
carbon tariffs to penalize goods from China and India. Here is 
a warning: Trade wars don't always end peacefully. If America 
adopts this anticoal policy toward the world, we will 
continually butt heads with China and many other developing 
countries.
    We have heard today that climate change could cause crop 
failure and food shortages and internal chaos in some 
countries. Well, during the past year food riots have broken 
out in more than 30 countries. In at least one instance, Haiti, 
rioters brought down the government.
    And one factor fueling this crisis is a global warming 
policy, biofuel subsidies and mandates. We are only at the baby 
steps of this policy. If we ramp it up and, in addition, limit 
developing countries' access to fossil energy, we could 
possibly condemn millions to poverty and misery, not a good way 
to promote stability and peace in the world.
    A much-touted study on abrupt climate change warned that a 
deep freeze in the North Atlantic would limit access to oil and 
gas and force poor nations to go nuclear, increasing the risk 
of proliferation. Well, a global moratorium on coal generation 
could do very much the same. Most cap-and-trade advocates are 
staunchly anti-nuke. But do they really suppose poor nations 
will consent to a ban on coal as an electricity fuel and not 
demand access to nuclear power?
    We often hear that coastal flooding from sea level rise 
could create millions of refugees in low-lying countries like 
Bangladesh. But climate policy might actually make Bangladesh 
more vulnerable to sea level rise. In 2006, Bangladesh's 
economy was $55 billion and growing at 6 percent a year. At 
that rate, Bangladesh's economy will be $1 trillion in 2050 and 
$18.5 trillion in 2100, the miracle of compound interest.
    But suppose----
    The Chairman. Could you please summarize?
    Mr. Lewis. Okay, I will summarize.
    If Bangladesh adopts a carbon tax and its growth rate falls 
by just 1 percentage point, its economy will be less than half 
the size in the year 2100, it will be less able to protect its 
citizens from sea level rise or handle other critical 
environmental challenges.
    Thank you.
    The Chairman. Thank you, Mr. Lewis, very much.
    [The statement of Mr. Lewis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. And our final witness, Kent Hughes Butts, a 
professor of political-military strategy at the U.S. Army War 
College. Dr. Butts previously taught at the U.S. Military 
Academy, and is the author of Climate Change: Complicating the 
Struggle Against Extremist Ideology. And he has a chapter in 
the recent book, Global Climate Change: National Security 
Implications.
    We welcome you, Dr. Butts.

   STATEMENT OF DR. KENT HUGHES BUTTS, PROFESSOR, POLITICAL-
 MILITARY STRATEGY, CENTER FOR STRATEGIC LEADERSHIP, U.S. ARMY 
                          WAR COLLEGE

    Mr. Butts. Chairman Markey, Chairwoman Eshoo, members of 
the committee, I am honored to be able to contribute to the 
hearings of the committee on the recent NIA on national 
security implications of global climate change to 2030. I 
appreciate the opportunity to respond to your questions 
concerning the NIA, the concerns of the military planners, and 
how the intelligence and military communities could plan for 
the various climate change scenarios.
    My testimony today reflects my personal views, and does not 
necessarily reflect the views of the Army, the Department of 
Defense, or the administration.
    Climate change has surfaced as a critical security issue in 
the post-Cold War era. While conflict between nation-states 
remains central to security studies, security strategists now 
see that regional stability depends on governments maintaining 
legitimacy and meeting the basic needs of their populations.
    The effects of climate change can overwhelm the capacity of 
fledgling democracies to meet those needs. Because climate 
change may worsen existing tensions and help destabilize 
regions, it is a worthy topic for Intelligence Community 
research, military planning, and interagency cooperation.
    I found the NIA to be a fine effort. It is broad in its 
approach and includes the various levels of resolution 
concerning global climate change and security. The strategic 
issues were given appropriate emphasis, and the NIA spells out 
regional effects that could lead to instability and conflict. 
In this way, it encourages the security community to explore 
proactive approaches to security issues.
    Because of the breadth of the topic, the NIA needed to 
highlight many significant areas that would warrant their own 
assessments. One of these areas is determining the regional 
implications of global climate change for U.S. national 
security.
    Future assessments could articulate U.S. national security 
interests in each region and evaluate the implications of 
climate change for those interests. Where are there threats? 
What opportunities are created?
    While much environmental security and climate change data 
is open source, there are many regions where data is currently 
unavailable or limited. The capacity of individual governments 
to mitigate or adapt to climate change effects would be 
difficult to discern, and a proper topic for future 
Intelligence Community research.
    In terms of relations with China, the United States is 
import-dependent for petroleum and mineral resources and finds 
itself competing with China for influence and minerals access 
in two critical regions of the world where global climate 
change is increasingly apparent, the Middle East and Africa.
    However, the impacts of climate change create common 
interests among countries, as well as competition. Because the 
United States is similarly dependent upon these two regions for 
its mineral imports, the two countries, China and the United 
States, do share a common interest in maintaining stability and 
ensuring dependable access at reasonable prices.
    Cooperation between the United States and China on 
mitigating the effects of climate change and encouraging the 
development of adaptation capabilities in mineral-producing 
regions are significant areas of cooperation that could serve 
as confidence-building measures between the two powers. This 
could also ensure a stable supply of mineral resources to an 
already tight world market and promote regional stability. 
State political systems unable to meet the demands placed upon 
them by the populations struggle to maintain legitimacy and 
power and invite the introduction of extremist ideology.
    Global climate change places additional demands upon 
political systems that many developing states cannot meet. 
Scarcities of resources, lack of water, reduced agricultural 
capacity create underlying conditions that terrorists seek to 
exploit. Food riots in Cairo at a time when members of the 
Muslim Brotherhood are running for election demonstrate the 
problem.
    Military planners are responding to the demands of their 
leaders for proactive approaches to these issues and the 
underlying conditions of terror. Planning for the impacts of 
global climate change in the Intelligence and Military 
Communities should balance high-impact, low-probability 
scenarios with low-probability, high-impact scenarios. It is 
important to plan for low-probability, high-impact events to 
identify the long lead time responses necessary to ensure U.S. 
national security interests.
    Such planning has the additional value of indicating to 
vulnerable countries that the U.S. takes threats to their 
existence seriously. As the military has learned on the 
battlefield, security planners need to prepare for what the 
threat can do, not just what the threat is likely to do.
    The Chairman. Dr. Butts, we appreciate your testimony, and 
each of the other witnesses.
    [The statement of Mr. Butts follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. There are now six roll calls pending upon the 
House floor that will necessitate all of our Members having to 
go over there. So what we are going to do now is go to a round 
of 2 minutes of questioning for each of the members here.
    And we will begin by recognizing Chairwoman Eshoo for her 
round of 2 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman. I don't know; this 
button is broken on this.
    Thank you to each one of you for your expertise that you 
have brought to us and for your magnificent service to our 
country.
    Vice Admiral Gaffney, I would like to ask you the following 
question--and I have more, and I am going to put them in 
writing. You represent the thinking of the military. That 
brings an enormous amount of weight, as it were, to the subject 
matter at hand.
    What do you recommend, given all of the discussion, 
obviously the knowledge that you have--and I would read into 
the record all of your background. I mean, after reading this, 
no one can say this man does not know what he is talking about. 
I mean, this is incredible, the role of the military in this.
    What would you advise our committee in terms of entwining--
intertwining the challenges, the national security challenges 
relative to climate change and the role of the U.S. military in 
the planning and the addressing of this enormous challenge that 
we have?
    Admiral Gaffney. Thank you, Madam Chairwoman.
    First of all, I would recommend that the combatant 
commanders in the regional theaters consider environmental 
change, climate change in their planning, both for the short 
term, but also for the long term. Likewise, planners inside the 
Defense Department that make investments in future capabilities 
should consider this for the long term.
    I also believe, and I think I said this, when you are doing 
planning regionally it should not be these long lazy curves 
that one sees sometimes presented by scientists, but much more 
regionally specific. And when you get to that, I think we need 
to collect the best data possible from every agency of 
government. And I have seen that both the Defense Department 
and the Intelligence Community have data, that they are already 
collecting as part of their regular mission, that should be 
reviewed to see if it is useful for this particular issue.
    Ms. Eshoo. Thank you.
    The Chairman. The gentlelady's time has expired.
    The gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Chairman. I will be equally brief.
    Dr. Lewis, Dr. Butts, you seem to have a common theme. The 
theme was be careful what you wish for and do, because then you 
have to figure out how to mitigate what you did to mitigate. 
Fair assumption?
    Mr. Lewis. Yes.
    Mr. Issa. Should this committee, as we tasked, okay, what 
apocalyptic events could happen if the temperature rises 7 
degrees, or as I suggested earlier, 1975 scenario, it drops 7 
degrees--it seems to have the same effect.
    Given that and given the assumption that today's prediction 
is that it is a clear rise in temperature from CO<INF>2</INF> 
emissions--that is sort of the given truism today--should we 
ask what CO<INF>2</INF> abatements are most efficient with the 
least offsets and in what locations and begin fast-implementing 
them?
    And I will give you a quick example. We can deploy wind 
energy anywhere in the world and the proliferation is limited. 
We can deploy nuclear here in the U.S. if we have the will to, 
and proliferation would be nonexistent.
    But you flip that around, okay: Can you do the same 
inverse? Of course not. So should we be asking the question of 
our best think tanks, in addition to agencies and so on, how do 
we get to zero emissions as quickly as possible with the least 
offsets and weigh those?
    And secondly, because the time is limited, don't we also 
have to ask what the impacts of rising food prices and so on 
are, and be just as concerned that those food prices are going 
to rise if we do exactly what we are doing today with no 
change? In other words, if we ignore global warming and it 
doesn't happen, we still have some very dangerous scenarios.
    Mr. Lewis. I guess I would have to say ``yes.'' I mean, 
that was a very multipart question.
    But, you know, it is interesting; Congress may not be able 
to enact a cap-and-trade program yet, but it certainly has the 
power of the purse. And it was interesting, as pointed out 
earlier, that we are spending $3 billion on energy technologies 
in this political climate in which people are saying that, you 
know, we could have some low-probability events that could 
actually destroy civilization.
    So, I mean, I am just wondering what it says, really, about 
political reality that we can have a rhetoric that I would 
consider alarmist, you know, that this is a civilization-ending 
peril, and yet we are only prepared to spend $3 billion to deal 
with it. However, what we would really like to do is impose a 
regulatory system on the economy that would force people to 
spend trillions.
    There seems to be a disconnect there.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from New York, Mr. Hall, 
for 2 minutes.
    Mr. Hall. Thank you, Mr. Chairman.
    I am interested in Professor Butts's assertion that the 
threat of climate change could provide opportunities for 
multilateral cooperation. Sort of the flip side of the coin 
that the former Secretary from the UK, Mrs. Beckett, made in 
terms of climate change being a threat multiplier.
    Do you envision technology transfer programs, water 
security agreements, coordinated disaster response efforts? 
Could you elaborate on those multilateral cooperations?
    Mr. Butts. Sir, all of those would qualify. I think that 
the mechanisms of our National Security Community could reach 
out to other nations and seek areas of cooperation and build 
confidence--CBMs, confidence-building measures. So in areas 
where there may be border disputes, there may be cooperation on 
dealing with watershed management. In areas where there are 
common interests, as I mentioned with China and the United 
States, how might we work together to improve development in 
those areas, help the governments maintain themselves in power, 
and prevent failed states that terrorists might take advantage 
of?
    Mr. Hall. Thank you.
    And I would just like to--I know time is short here. I just 
want to thank the Admiral for quoting Mr. Gingrich that we 
cannot afford to be wrong about this. And I believe personally 
that I would rather be wrong on the side of doing what it takes 
to mitigate climate change, because in the process of doing so, 
we will be creating new technologies and new jobs and new 
industries and renewable technologies here, hopefully keeping 
the jobs here at home and reversing that flow of dollars that 
has been bleeding us for the last several years and putting us 
in an insecure economic and national security position.
    And I yield back.
    The Chairman. I thank the gentleman very much.
    I thank the panel for their tremendous contribution today. 
We apologize to you, but we did learn today that the 
Intelligence Community believes that global warming creates 
conditions that foster terrorism. That shocking conclusion 
should give even greater reason to act promptly on climate 
change legislation.
    Unfortunately, the harsh truth has been papered over in 
public testimony. This administration has a multicolor scheme 
for warnings--red, orange, yellow, green--but the 
administration uses another color on climate change, and that 
is whitewash. It does a great disservice to the American people 
to obscure the truth behind the cloak of phony secrecy claims.
    We need, on a bipartisan basis, to have this entire report 
declassified so that we can have the full-ranging debate not 
only that the United States needs, but the entire world needs 
so that we can take the action now before it is too late.
    We thank each of you for your contribution today. We 
apologize to you for the truncated nature of the hearing. But 
with that, this hearing is adjourned with a minute and 38 
seconds yet to go a quarter of a mile over to the House floor. 
Thank you.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
